 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


     RISK ADJUSTMENT DATA
VALIDATION OF PAYMENTS MADE TO
 PACIFICARE OF CALIFORNIA FOR
     CALENDAR YEAR 2007
   (CONTRACT NUMBER H0543)


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                   Daniel R. Levinson
                                                    Inspector General

                                                      November 2012
                                                      A-09-09-00045
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Under the Medicare Advantage (MA) program, the Centers for Medicare & Medicaid Services
(CMS) makes monthly capitated payments to MA organizations for beneficiaries enrolled in the
organizations’ health care plans. Subsections 1853(a)(1)(C) and (a)(3) of the Social Security Act
require that these payments be adjusted based on the health status of each beneficiary. CMS uses
the Hierarchical Condition Category (HCC) model (the CMS model) to calculate these risk-
adjusted payments.

Under the CMS model, MA organizations collect risk adjustment data, including beneficiary
diagnoses, from hospital inpatient facilities, hospital outpatient facilities, and physicians during a
data collection period. MA organizations identify the diagnoses relevant to the CMS model and
submit them to CMS. CMS categorizes the diagnoses into groups of clinically related diseases
called HCCs and uses the HCCs, as well as demographic characteristics, to calculate a risk score
for each beneficiary. CMS then uses the risk scores to adjust the monthly capitated payments to
MA organizations for the next payment period.

PacifiCare of California (PacifiCare) is an MA organization owned by UnitedHealth Group. For
calendar year (CY) 2007, PacifiCare had multiple contracts with CMS, including contract
H0543, which we refer to as “the contract.” Under the contract, CMS paid PacifiCare
approximately $3.6 billion to administer health care plans for approximately 344,000
beneficiaries. Our review covered approximately $2.3 billion of the payments that CMS made to
PacifiCare on behalf of 188,829 beneficiaries.

OBJECTIVE

Our objective was to determine whether the diagnoses that PacifiCare submitted to CMS for use
in CMS’s risk score calculations complied with Federal requirements.

SUMMARY OF FINDINGS

The diagnoses that PacifiCare submitted to CMS for use in CMS’s risk score calculations did not
always comply with Federal requirements. For 55 of the 100 beneficiaries in our sample, the risk
scores calculated using the diagnoses that PacifiCare submitted were valid. The risk scores for
the remaining 45 beneficiaries were invalid because the diagnoses were not supported by the
documentation that PacifiCare provided.

PacifiCare did not have written policies and procedures for obtaining, processing, and submitting
diagnoses to CMS. Furthermore, PacifiCare’s practices were not effective in ensuring that the
diagnoses it submitted to CMS complied with the requirements of the 2006 Risk Adjustment
Data Basic Training for Medicare Advantage Organizations Participant Guide (the 2006
Participant Guide) and the 2007 Risk Adjustment Data Training for Medicare Advantage
Organizations Participant Guide (the 2007 Participant Guide). UnitedHealth Group officials




                                                  i
stated that the providers were responsible for the accuracy of the diagnoses that PacifiCare
submitted to CMS.

As a result of these unsupported diagnoses, PacifiCare received $224,388 in overpayments from
CMS. Based on our sample results, we estimated that PacifiCare was overpaid approximately
$423,709,068 in CY 2007. (This amount represents our point estimate. The confidence interval
for this estimate has a lower limit of $288 million and an upper limit of $559 million. See
Appendix B.)

RECOMMENDATIONS

We recommend the following:

   •   PacifiCare should refund to the Federal Government $224,388 in overpayments identified
       for the sampled beneficiaries.

   •   PacifiCare should work with CMS to determine the correct contract-level adjustment for
       the estimated $423,709,068 of overpayments.

   •   PacifiCare should implement written policies and procedures for obtaining, processing,
       and submitting valid risk adjustment data.

   •   PacifiCare should improve its current practices to ensure compliance with Federal
       requirements.

PACIFICARE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, PacifiCare disagreed with our findings and our
recommendation that it refund the identified overpayments. PacifiCare said that our analysis,
methodology, and projection were flawed. PacifiCare stated that our audit results did not
account for error rates inherent in Medicare fee-for-service (FFS) data, specifically the disparity
between FFS claim data and FFS medical records data and its potential impact on MA payments.
PacifiCare also stated that we should have used the 2006 Participant Guide to evaluate its
compliance with CMS’s requirements. In addition, PacifiCare stated that we did not follow
CMS’s audit methodology when we refused to accept physician signature attestations. Lastly,
PacifiCare disagreed with the results of our first and second medical reviews for 22 HCCs and,
for 12 of these HCCs, provided us with additional documentation and/or new information on
documentation previously provided as to why the HCCs were supported. PacifiCare’s comments
are included in their entirety as Appendix D.

Although an analysis to determine the potential impact of error rates inherent in FFS data on MA
payments was beyond the scope of our audit, we acknowledge that CMS is studying this issue
and its potential impact on audits of MA organizations. Therefore, because of the potential
impact of these error rates on the CMS model that we used to recalculate MA payments for the
beneficiaries in our sample, we (1) modified one recommendation to have PacifiCare refund only
the overpayments identified for the sampled beneficiaries rather than refund the estimated


                                                ii
overpayments and (2) added a recommendation that PacifiCare work with CMS to determine the
correct contract-level adjustments for the estimated overpayments.

Regarding CMS’s 2006 Participant Guide, we based our findings on criteria set forth in CMS’s
2007 Participant Guide. After our review, we compared the data submission criteria in both the
2006 and 2007 Participant Guides and determined that there were no substantial differences in
the criteria upon which our results were based.

We did not initially accept physician attestations. However, pursuant to a 2010 change in
Federal regulations, we accepted attestations and revised our findings accordingly. For the
12 HCCs for which PacifiCare provided additional documentation and information, we
submitted the documentation and information to our medical review contractor for a third
medical review and revised our findings accordingly.




                                               iii
                                                 TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Advantage Program .............................................................................1
              Risk-Adjusted Payments ......................................................................................1
              Federal Requirements ..........................................................................................1
              PacifiCare of California .......................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          FEDERAL REQUIREMENTS ........................................................................................5

          UNSUPPORTED HIERARCHICAL CONDITION CATEGORIES .............................5

          CAUSES OF OVERPAYMENTS ...................................................................................6

          ESTIMATED OVERPAYMENTS .................................................................................7

          RECOMMENDATIONS .................................................................................................7

          PACIFICARE COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................8
                Random Sample ...................................................................................................8
                Audit Methodology ..............................................................................................9
                Hierarchical Condition Categories Derived From Medical Records ...................10
                Centers for Medicare & Medicaid Services Model .............................................10
                Members Who Terminated Coverage or Changed Status....................................11
                Audit Processes and Standards ............................................................................11
                Stratification of Sample .......................................................................................12
                Incidental Hierarchical Condition Categories ......................................................12
                Physician Signature Attestations..........................................................................13
                Individual Payment Adjustments .........................................................................13
                Two Levels of Review .........................................................................................13
                Policies and Procedures .......................................................................................14
                Invalidated Hierarchical Condition Categories ....................................................14




                                                                    iv
APPENDIXES

    A: SAMPLE DESIGN AND METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: UNSUPPORTED HIERARCHICAL CONDITION CATEGORIES IN SAMPLE

    D: PACIFICARE COMMENTS




                               v
                                             INTRODUCTION

BACKGROUND

Medicare Advantage Program

The Balanced Budget Act of 1997, P.L. No. 105-33, established Medicare Part C to offer
beneficiaries managed care options through the Medicare+Choice program. Section 201 of the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
revised Medicare Part C and renamed the program the Medicare Advantage (MA) program.
Organizations that participate in the MA program include health maintenance organizations,
preferred provider organizations, provider-sponsored organizations, and private fee-for-service
(FFS) plans. The Centers for Medicare & Medicaid Services (CMS), which administers the
Medicare program, makes monthly capitated payments to MA organizations for beneficiaries
enrolled in the organizations’ health care plans (beneficiaries).

Risk-Adjusted Payments

Subsections 1853(a)(1)(C) and (a)(3) of the Social Security Act require that payments to
MA organizations be adjusted based on the health status of each beneficiary. In calendar year
(CY) 2004, CMS implemented the Hierarchical Condition Category (HCC) model (the CMS
model) to calculate these risk-adjusted payments.

Under the CMS model, MA organizations collect risk adjustment data, including beneficiary
diagnoses, from hospital inpatient facilities, hospital outpatient facilities, and physicians during a
data collection period. 1 MA organizations identify the diagnoses relevant to the CMS model and
submit them to CMS. CMS categorizes the diagnoses into groups of clinically related diseases
called HCCs and uses the HCCs, as well as demographic characteristics, to calculate a risk score
for each beneficiary. CMS then uses the risk scores to adjust the monthly capitated payments to
MA organizations for the next payment period. 2

Federal Requirements

Regulations (42 CFR § 422.310(b)) require MA organizations to submit risk adjustment data to
CMS in accordance with CMS instructions. CMS issued instructions in its 2006 Risk Adjustment
Data Basic Training for Medicare Advantage Organizations Participant Guide (the 2006
Participant Guide) that provided requirements for submitting risk adjustment data for the
CY 2006 data collection period. CMS issued similar instructions in its 2007 Risk Adjustment
Data Training for Medicare Advantage Organizations Participant Guide (the 2007 Participant
Guide).


1
 Risk adjustment data also include health insurance claim numbers, provider types, and the from and through dates
for the services.
2
 For example, CMS used data that MA organizations submitted for the CY 2006 data collection period to adjust
payments for the CY 2007 payment period.


                                                        1
Diagnoses included in risk adjustment data must be based on clinical medical record
documentation from a face-to-face encounter; coded according to the International Classification
of Diseases, Ninth Revision, Clinical Modification (ICD-9-CM) (the Coding Guidelines);
assigned based on dates of service within the data collection period; and submitted to the MA
organization from an appropriate risk adjustment provider type and an appropriate risk
adjustment physician data source. The 2006 and 2007 Participant Guides described requirements
for hospital inpatient, hospital outpatient, and physician documentation.

PacifiCare of California

PacifiCare of California (PacifiCare) is an MA organization owned by UnitedHealth Group. For
CY 2007, PacifiCare had multiple contracts with CMS, including contract H0543, which we
refer to as “the contract.” Under the contract, CMS paid PacifiCare approximately $3.6 billion to
administer health care plans for approximately 344,000 beneficiaries.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the diagnoses that PacifiCare submitted to CMS for use
in CMS’s risk score calculations complied with Federal requirements.

Scope

Our review covered approximately $2.3 billion of the CY 2007 MA organization payments that
CMS made to PacifiCare on behalf of 188,829 beneficiaries. These payments were based on risk
adjustment data that PacifiCare submitted to CMS for CY 2006 dates of service for beneficiaries
who (1) were continuously enrolled under the contract during all of CY 2006 and January of
CY 2007 3 and (2) had a CY 2007 risk score that was based on at least one HCC. We limited our
review of PacifiCare’s internal control structure to controls over the collection, processing, and
submission of risk adjustment data.

We asked PacifiCare to provide us with the one medical record that best supported the HCC(s)
that CMS used to calculate each risk score. If our review found that a medical record did not
support one or more assigned HCCs, we gave PacifiCare the opportunity to submit an additional
medical record for a second medical review.

We performed our fieldwork at UnitedHealth Group in Minnetonka, Minnesota, and at CMS in
Baltimore, Maryland, from December 2008 through November 2011.




3
 We limited our sampling frame to continuously enrolled beneficiaries to ensure that PacifiCare was responsible for
submitting the risk adjustment data that resulted in the risk scores covered by our review.


                                                         2
Methodology

To accomplish our objective, we did the following:

    •    We reviewed applicable Federal laws, regulations, and guidance regarding payments to
         MA organizations.

    •    We interviewed CMS officials to obtain an understanding of the CMS model.

    •    We obtained the services of a medical review contractor to determine whether the
         documentation that PacifiCare submitted supported the HCCs associated with the
         beneficiaries in our sample.

    •    We interviewed UnitedHealth Group officials to gain an understanding of PacifiCare’s
         internal controls for obtaining risk adjustment data from providers, processing the
         data, and submitting the data to CMS.

    •    We obtained enrollment data, CY 2007 beneficiary risk score data, and CY 2006 risk
         adjustment data from CMS and identified 188,829 beneficiaries who (1) were
         continuously enrolled under the contract during all of CY 2006 and January of CY 2007
         and (2) had a CY 2007 risk score that was based on at least 1 HCC.

    •    We selected a simple random sample of 100 beneficiaries with 262 HCCs. (See
         Appendix A for our sample design and methodology.) For each sampled beneficiary, we:

             o    analyzed the CY 2007 beneficiary risk score data to identify the HCC(s) that
                  CMS assigned;

             o    analyzed the CY 2006 risk adjustment data to identify the diagnosis or diagnoses
                  that PacifiCare submitted to CMS associated with the beneficiary’s HCC(s);

             o    requested that PacifiCare provide us the one medical record that, in PacifiCare’s
                  judgment, best supported the HCC(s) that CMS used to calculate the beneficiary’s
                  risk score;

             o    obtained PacifiCare’s certification that the documentation provided represented
                  “the one best medical record to support the HCC”; 4 and

             o    submitted PacifiCare’s documentation and HCCs for each beneficiary to our
                  medical review contractor for a first medical review and requested additional
                  documentation from PacifiCare for a second medical review if the contractor


4
  The 2006 Participant Guide, sections 8.2.3 and 8.2.3.1, and the 2007 Participant Guide, sections 7.2.3 and 7.2.3.1,
required plans to select the “one best medical record” to support each HCC and indicate that the best medical record
may include a range of consecutive dates (if the record is from a hospital inpatient provider) or one date (if the
record is from a hospital outpatient or physician provider).


                                                          3
                 found that documentation submitted during the first review did not support the
                 HCCs.

    •   For some of the draft report findings with which it disagreed, 5 PacifiCare provided
        additional documentation and/or information, which we submitted to our medical review
        contractor for a third review.

    •   For the sampled beneficiaries that we determined to have unsupported HCCs, we (1) used
        the medical review results to adjust the beneficiaries’ risk scores, (2) recalculated
        CY 2007 payments using the adjusted risk scores, and (3) subtracted the recalculated
        CY 2007 payments from the actual CY 2007 payments to determine the overpayments
        and underpayments CMS made on behalf of the beneficiaries.

    •   We estimated the total value of overpayments based on our sample results. (See
        Appendix B for our sample results and estimates.)

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The diagnoses that PacifiCare submitted to CMS for use in CMS’s risk score calculations did not
always comply with Federal requirements. For 55 of the 100 beneficiaries in our sample, the risk
scores calculated using the diagnoses that PacifiCare submitted were valid. The risk scores for
the remaining 45 beneficiaries were invalid because the diagnoses were not supported by the
documentation provided by PacifiCare.

PacifiCare did not have written policies and procedures for obtaining, processing, and submitting
diagnoses to CMS. Furthermore, PacifiCare’s practices were not effective in ensuring that the
diagnoses it submitted to CMS complied with the requirements of the 2006 and 2007 Participant
Guides. UnitedHealth Group officials stated that providers were responsible for the accuracy of
the diagnoses that PacifiCare submitted to CMS.

As a result of these unsupported diagnoses, PacifiCare received $224,388 in overpayments from
CMS. Based on our sample results, we estimated that PacifiCare was overpaid approximately
$423,709,068 in CY 2007.




5
  Of the 22 HCCs that PacifiCare disagreed with, we accepted physician signature attestations that validated 5 HCCs
and submitted 12 HCCs for a third medical review. PacifiCare did not provide any new documentation or
information on the remaining five HCCs.


                                                        4
FEDERAL REQUIREMENTS

Regulations (42 CFR § 422.310(b)) state: “Each MA organization must submit to CMS (in
accordance with CMS instructions) the data necessary to characterize the context and purposes
of each service provided to a Medicare enrollee by a provider, supplier, physician, or other
practitioner. CMS may also collect data necessary to characterize the functional limitations of
enrollees of each MA organization.” The 2007 Participant Guide, section 8.7.3, and the 2006
Participant Guide, section 7.7.3, state that “MA organizations are responsible for the accuracy of
the data submitted to CMS.”

Pursuant to section 2.2.1 of the 2007 and 2006 Participant Guides, risk adjustment data
submitted to CMS must include a diagnosis. Pursuant to the 2007 Participant Guide, section
7.1.4, and the 2006 Participant Guide, section 8.1.3, the diagnosis must be coded according to the
Coding Guidelines. Section III of the Coding Guidelines states that for each hospital inpatient
stay, the hospital’s medical record reviewer should code the principal diagnosis and “… all
conditions that coexist at the time of admission, that develop subsequently, or that affect the
treatment received and/or length of stay. Diagnoses that relate to an earlier episode which have
no bearing on the current hospital stay are to be excluded.” Sections II and III of the Coding
Guidelines state that “if the diagnosis documented at the time of discharge is qualified as
‘probable,’ ‘suspected,’ ‘likely,’ ‘questionable,’ ‘possible,’ or ‘still to be ruled out,’ code the
condition as if it existed or was established.”

Section IV of the Coding Guidelines states that for each outpatient and physician service, the
provider should “[c]ode all documented conditions that coexist at the time of the encounter/visit,
and require or affect patient care treatment or management.” The Coding Guidelines also state
that conditions should not be coded if they “… were previously treated and no longer exist.
However, history codes … may be used as secondary codes if the historical condition or family
history has an impact on current care or influences treatment.” Additionally, in outpatient and
physician settings, uncertain diagnoses, including those that are “probable,” “suspected,”
“questionable,” or “working,” should not be coded.

UNSUPPORTED HIERARCHICAL CONDITION CATEGORIES

To calculate beneficiary risk scores and risk-adjusted payments to MA organizations, CMS must
first convert diagnoses to HCCs. During our audit period, PacifiCare submitted to CMS at least
one diagnosis associated with each HCC that CMS used to calculate each sampled beneficiary’s
risk score for CY 2007. The risk scores for 45 sampled beneficiaries were invalid because the
diagnoses that PacifiCare submitted to CMS were not supported. These diagnoses were
associated with 77 unsupported HCCs, shown in Appendix C.

For 11 of the 77 HCCs, other diagnoses were determined to be more appropriate. In these
instances, the documentation supported HCCs that were different from those that CMS used in
determining the beneficiaries’ risk scores. The following are examples of HCCs that were not
supported by the documentation that PacifiCare submitted to us for medical review:




                                                5
       •   For one beneficiary, PacifiCare submitted the diagnosis code for “spinocerebellar disease,
           other cerebellar ataxia.” 6 CMS used the HCC associated with this diagnosis in
           calculating the beneficiary’s risk score. However, the documentation that PacifiCare
           provided described an evaluation for fever and cough. The documentation did not
           mention cerebellar ataxia or indicate that cerebellar ataxia had affected the care,
           treatment, or management provided during the encounter.

       •   For a second beneficiary, PacifiCare submitted the diagnosis code for “malignant
           neoplasm of the prostate.” CMS used the HCC associated with this diagnosis in
           calculating the beneficiary’s risk score. However, the documentation that PacifiCare
           provided appeared to describe suture removal and left shoulder bursitis/tendonitis. The
           documentation did not mention prostate cancer or indicate that prostate cancer had
           affected the care, treatment, or management provided during the encounter.

       •   For a third beneficiary, PacifiCare submitted the diagnosis code for “unspecified
           septicemia” (commonly referred to as “blood poisoning”). CMS used the HCC
           associated with this diagnosis in calculating the beneficiary’s risk score. However, the
           documentation that PacifiCare provided noted that the patient was admitted for a “left
           total knee revision arthroplasty.” The documentation did not mention blood poisoning or
           indicate that blood poisoning had affected the care, treatment, or management provided
           during the encounter.

CAUSES OF OVERPAYMENTS

During our audit period, PacifiCare did not have written policies and procedures for obtaining,
processing, and submitting risk adjustment data to CMS. UnitedHealth Group officials informed
us that PacifiCare had since developed written policies and procedures but had not implemented
them as of December 2, 2009.

According to UnitedHealth Group officials, PacifiCare had practices, including error correction
and chart validation, in place to ensure the accuracy of the diagnoses that it submitted to CMS:

       •   Error correction is an automated process designed to identify provider-submitted
           diagnosis codes that do not exist in the Coding Guidelines. UnitedHealth Group officials
           told us that 0.19 percent of the provider-submitted diagnosis codes were rejected by the
           automated process and manually corrected in CYs 2008 and 2009.

       •   Chart validation is a review of documentation to ensure that the diagnoses submitted to
           CMS are correctly coded. However, UnitedHealth Group officials stated that PacifiCare
           did not routinely use chart validation as a preventive practice but rather used it as a
           response to external auditors’ requests for documentation that best supports the diagnoses
           already submitted to CMS.




6
    Spinocerebellar ataxia is a genetically inherited disorder characterized by abnormal brain function.


                                                             6
As demonstrated by the significant error rate found in our sample, PacifiCare’s practices were
not effective in ensuring that the diagnoses submitted to CMS complied with the requirements of
the 2006 and 2007 Participant Guides. UnitedHealth Group officials stated that providers were
responsible for the accuracy of the diagnoses that PacifiCare submitted to CMS.

ESTIMATED OVERPAYMENTS

As a result of the unsupported diagnoses in our sample, PacifiCare received $224,388 in
overpayments from CMS. Based on our sample results, we estimated that PacifiCare was
overpaid approximately $423,709,068 in CY 2007. However, while an analysis to determine the
potential impact of error rates inherent in FFS data on MA payments was beyond the scope of
our audit, we acknowledge that CMS is studying this issue and its potential impact on audits of
MA organizations. 7

Therefore, because of the potential impact of these error rates on the CMS model that we used to
recalculate MA payments for the beneficiaries in our sample, we (1) modified one
recommendation to have PacifiCare refund only the overpayments identified for the sampled
beneficiaries rather than refund the estimated overpayments and (2) added a recommendation
that PacifiCare work with CMS to determine the correct contract-level adjustments for the
estimated overpayments.

RECOMMENDATIONS

We recommend the following:

      •    PacifiCare should refund to the Federal Government $224,388 in overpayments identified
           for the sampled beneficiaries.

      •    PacifiCare should work with CMS to determine the correct contract-level adjustment for
           the estimated $423,709,068 8 of overpayments.

      •    PacifiCare should implement written policies and procedures for obtaining, processing,
           and submitting valid risk adjustment data.

      •    PacifiCare should improve its current practices to ensure compliance with Federal
           requirements.




7
    75 Fed. Reg. 19749 (April 15, 2010).
8
 This amount represents our point estimate. The confidence interval for this estimate has a lower limit of
$288 million and an upper limit of $559 million. See Appendix B.


                                                         7
PACIFICARE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, PacifiCare 9 disagreed with our findings and our
recommendation that it refund the identified overpayments. PacifiCare said that our analysis,
methodology, and projection were flawed. PacifiCare stated that our audit results did not
account for error rates inherent in Medicare FFS data, specifically the disparity between FFS
claim data and FFS medical records data and its potential impact on MA payments. PacifiCare
also stated that we should have used the 2006 Participant Guide to evaluate its compliance with
CMS’s requirements. In addition, PacifiCare stated that we did not follow CMS’s audit
methodology when we refused to accept physician signature attestations. Lastly, PacifiCare
disagreed with the results of our first and second medical reviews for 22 HCCs and, for 12 of
these HCCs, provided us with additional documentation and/or new information on
documentation previously provided as to why the HCCs were supported. PacifiCare’s
comments, which we summarize below, are included in their entirety as Appendix D.

Although an analysis to determine the potential impact of error rates inherent in FFS data on MA
payments was beyond the scope of our audit, we acknowledge that CMS is studying this issue
and its potential impact on audits of MA organizations. 10 Therefore, because of the potential
impact of these error rates on the CMS model that we used to recalculate MA payments for the
beneficiaries in our sample, we (1) modified one recommendation to have PacifiCare refund only
the overpayments identified for the sampled beneficiaries rather than refund the estimated
overpayments and (2) added a recommendation that PacifiCare work with CMS to determine the
correct contract-level adjustments for the estimated overpayments.

Regarding CMS’s 2006 Participant Guide, we based our findings on criteria set forth in CMS’s
2007 Participant Guide. After our review, we compared the data submission criteria in both the
2006 and 2007 Participant Guides and determined that there were no substantial differences in
the criteria upon which our results were based.

We did not initially accept physician attestations. However, pursuant to a 2010 change in
Federal regulations, we accepted attestations and revised our findings accordingly. For the
12 HCCs for which PacifiCare provided additional documentation and information, we
submitted the documentation and information to our medical review contractor for a third
medical review and revised our findings accordingly.

Random Sample

PacifiCare Comments

PacifiCare stated that our sample of 100 beneficiaries did not fully represent the 344,000
members enrolled in the contract or the 188,829 members who had a risk score based on at least
1 HCC during our audit period. PacifiCare said that because (1) only 49 of the 70 HCCs that

9
 The letterhead of the written comments is from United Healthcare Medicare & Retirement. Medicare
& Retirement is one of six businesses operated by UnitedHealth Group, which owns PacifiCare.
10
     75 Fed. Reg. 19749 (April 15, 2010).


                                                      8
appeared in the population were represented in our audit sample, (2) the risk adjustment factor
(RAF) sample mean was not statistically equal to the RAF population mean, and (3) the average
number of HCCs per member in the sample was higher than in the population, our sample did
not accurately represent the population.

Office of Inspector General Response

Our sample size of 100 beneficiaries provided a fair and unbiased representation of the 188,829
members in our sampling frame.

A random sample is not required to contain one or more items from every subgroup within a
sampling frame, because a very small HCC subgroup would have only a small probability of
inclusion in the sample. Of the 21 HCCs that PacifiCare stated were not represented in our
sample, 19 had a frequency of less than 1 percent of the sampling frame and the remaining 2 had
a frequency of less than 2 percent.

In addition, because there are many combinations of 100 beneficiaries that could have been
selected from our sampling frame, the RAF mean and average number of HCCs per member in
the sample would not necessarily, and most likely would not, equal the RAF mean and average
number of HCCs per member in the sampling frame. However, this does not mean that the
sample is not a valid random sample. By definition, a random sample is representative of the
sampling frame regardless of the differences between the RAF mean and average number of
HCCs in the sample versus the sampling frame.

Audit Methodology

PacifiCare Comments

PacifiCare stated that we recommended a repayment amount using a methodology that has not
been vetted by CMS and on which MA organizations have not had the opportunity to comment.
PacifiCare further stated that we did not follow an established CMS methodology to calculate
payment errors and that we did not adequately describe our payment calculation and
extrapolation methodology and our basis for using that methodology. PacifiCare stated that our
methodology must mirror a CMS methodology and that CMS has not determined a methodology.

Office of Inspector General Response

Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are intended to provide
an independent assessment of U.S. Department of Health and Human Services (HHS) programs
and operations. Accordingly, we do not always determine, nor are we required to determine,
whether our payment error calculation and extrapolation methodology are consistent with CMS’s
methodology. We designed our review to determine whether diagnoses that PacifiCare
submitted for use in CMS’s risk score calculations complied with Federal requirements. In
addition, we described our payment error calculation in the body of our report. We described our
sample selection and estimation methodology in Appendixes A and B.




                                               9
Hierarchical Condition Categories Derived From Medical Records

PacifiCare Comments

PacifiCare stated that using HCCs identified from medical records as inputs in computing
payment errors was inappropriate because (1) HCCs derived from medical records are not the
same as HCCs derived from claim data; (2) HCCs derived from medical records were not the
appropriate input for the CMS model used to determine capitation payments; and (3) our audit
results did not account for error rates inherent in Medicare FFS data, specifically the level of
disparity between FFS claim data and FFS medical record data and its potential impact on MA
payments.

Office of Inspector General Response

According to section 6.5 of the 2007 Participant Guide and section 5.5 of the 2006 Participant
Guide, “reported diagnoses must be supported with medical record documentation.” We used
medical records as inputs to support HCCs because medical records must support the diagnoses
that were used to assign the HCCs.

Our methodology to recalculate the MA payments was appropriate because we used the CMS
model to calculate PacifiCare’s monthly contract-level capitation payments. An analysis to
determine the potential impact of error rates inherent in Medicare FFS data on MA payments
was outside the scope of this audit. However, in its Final Rule, “Medicare Program; Policy and
Technical Changes to the Medicare Advantage and the Medicare Prescription Drug Benefit
Programs,” CMS stated that there may be merit in further refining the calculation of payment
errors that result from postpayment validation efforts. 11 Given the potential impact of this error
rate on the CMS model that we used to recalculate MA payments, we modified our first
recommendation to seek a refund only for the overpayments identified for the sampled
beneficiaries. We made an additional recommendation that PacifiCare work with CMS to
determine the correct contract-level adjustments for the estimated overpayments.

Centers for Medicare & Medicaid Services Model

PacifiCare Comments

PacifiCare stated that (1) although accurate for large populations, the CMS model was not
designed to produce results for individual beneficiaries and (2) the confidence intervals that we
computed were understated. PacifiCare said that the CMS model was designed to make cost
predictions for the average beneficiary in a relatively large subgroup and that the prediction for
any individual beneficiary may be significantly in error. PacifiCare stated that the confidence
interval reflects only the sampling variance in the overpayment (underpayment) amounts and
does not incorporate uncertainty in the CMS model used to forecast expenditures for HCCs.




11
     75 Fed. Reg. 19749 (April 15, 2010).


                                                 10
Office of Inspector General Response

Our use of the CMS model and supporting medical records was consistent with the method that
CMS used to compute PacifiCare’s monthly contract-level capitation payments. We agree that
the CMS model is designed to make a cost prediction for the average beneficiary in a subgroup,
and we have never asserted that the payments we recalculated after adjusting the risk scores
based on validated HCCs were any more or less accurate for a given beneficiary than what the
CMS model was designed to predict.

CMS officials told us that capitated payments made to MA plans for individual beneficiaries are
fixed and have never been retroactively adjusted. We estimated the overpayment amount using
the midpoint. Any attempt on our part to modify the CMS model to calculate PacifiCare’s
CY 2007 payments would have been speculative and beyond the scope of our audit.

Members Who Terminated Coverage or Changed Status

PacifiCare Comments

PacifiCare stated that we did not account for the differences between the sample population and
the larger extrapolation population. Specifically, PacifiCare stated that we did not include in the
larger population members who moved to different plans or died during the 2007 payment year.
In addition, the larger population included beneficiaries whose status had changed during the
payment year (e.g., transferred to institutions or started hospice care or dialysis). According to
PacifiCare, determining an overpayment based on these members was inappropriate because
their capitation payments were calculated using a different methodology from that used for the
general membership.

Office of Inspector General Response

As we explain in Appendix A, we limited our population to the 188,829 beneficiaries who were
continuously enrolled from January 2006 through January 2007 and had at least 1 HCC during
the audit period.

Audit Processes and Standards

PacifiCare Comments

PacifiCare stated that the Office of Inspector General (OIG) was required by law and by our
audit objective to follow CMS guidance and regulations governing Risk Adjustment Data
Validation (RADV) audits in conducting this audit. PacifiCare said that we failed to follow
CMS processes and, in doing so, exceeded our authority and arrived at inaccurate results that
contradict CMS practices, stated policies, and methodologies. Also, PacifiCare stated that we
should have used the 2006 Participant Guide to evaluate PacifiCare’s compliance with CMS
requirements.




                                                11
Office of Inspector General Response

We are not required by law to follow CMS guidance and regulations governing RADV audits.
Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are intended to provide
an independent assessment of HHS programs and operations. We did not perform an RADV
audit pursuant to the guidelines that CMS established in its 2006 and 2007 Participant Guides.
Those reviews are a CMS function. We designed our review to determine whether diagnoses
that PacifiCare submitted for use in CMS’s risk score calculations complied with Federal
requirements. Regarding CMS’s 2006 Participant Guide, we based our findings on criteria set
forth in CMS’s 2007 Participant Guide. After our review, we compared the data submission
criteria in both the 2006 and 2007 Participant Guides and determined that there were no
substantial differences in the criteria upon which our results were based.

Stratification of Sample

PacifiCare Comments

PacifiCare stated that we did not follow CMS’s example in conducting RADV audits by
stratifying our sample. PacifiCare stated that stratification would have ensured that the sample
was both random and representative of the population.

Office of Inspector General Response

As stated previously, we did not design our review to be an RADV audit, and we are not required
to follow CMS’s RADV audit protocol. Furthermore, although we did not stratify our sample, it
was randomly selected. By definition, any random sample is representative of the sampling
frame.

Incidental Hierarchical Condition Categories

PacifiCare Comments

PacifiCare stated that we did not consider additional HCCs that were identified incidentally
during the audit in accordance with CMS practices. Specifically, PacifiCare said that we did not
credit it for HCCs that had been documented in the medical records and identified during the
medical review but not reported to CMS. PacifiCare added that it would have received credit for
these HCCs under established CMS standards and practices.

Office of Inspector General Response

Our objective was to determine whether the diagnoses that PacifiCare submitted to CMS for use
in CMS’s risk score calculations complied with Federal requirements. Additional diagnoses that
were not originally reported to CMS were outside the scope of our audit.




                                                12
Physician Signature Attestations

PacifiCare Comments

PacifiCare stated that we did not follow CMS’s audit methodology when we refused to accept
physician signature attestations. PacifiCare added that, as a result, we identified nine HCCs that
were invalid, in whole or in part, because they did not have physician signatures and credentials.

Office of Inspector General Response

We did not initially accept physician attestations because the 2007 Participant Guide, section
7.2.4.5, and the 2006 Participant Guide, section 8.2.4.4, stated that documentation supporting the
diagnosis must include an acceptable physician signature. However, pursuant to a 2010 change
in Federal regulations (42 CFR § 422.311), we accepted attestations and revised our findings
accordingly.

Individual Payment Adjustments

PacifiCare Comments

PacifiCare stated that neither the 2006 nor the 2007 Participant Guide discussed extrapolating
“overpayments” to the contract level using risk-adjusted discrepancies discovered in an RADV
audit. PacifiCare also stated that before the application of the pilot project, 12 CMS made
payment adjustments only for those enrollees sampled.

Office of Inspector General Response

As stated above, pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are
intended to provide an independent assessment of HHS programs and operations. We modified
our first recommendation to seek a refund only of the overpayments identified for the sampled
beneficiaries. We made an additional recommendation that PacifiCare work with CMS to
determine the correct contract-level adjustments for the estimated overpayments.

Two Levels of Review

PacifiCare Comments

PacifiCare stated that our review of medical records did not include certain processes included in
CMS’s 2006 and 2007 Participant Guides. PacifiCare said that when conducting RADV audits,
CMS contracts with two independent medical review contractors to conduct its medical reviews;
OIG does not. During CMS medical reviews, one contractor conducts the initial medical review
of medical records. Discrepancies identified by this contractor are subject to another review by a
second contractor. PacifiCare added that the use of two contractors mitigates discrepancies and
stated that our process did not provide the same procedural protections.

12
     In July 2008, CMS announced a pilot project to more extensively audit MA organizations.



                                                         13
Office of Inspector General Response

As stated previously, we did not design our review to be an RADV audit, and we are not required
to follow CMS’s RADV audit protocol. Although we did not have two independent contractors
review PacifiCare’s medical record documentation, we ensured that our medical review
contractor had an independent review process in place. If the initial medical reviewer identified
discrepancies, another medical reviewer, independent of the initial review, performed a second
review. If the results of both reviews differed, the contractor’s medical director made the final
determination. If we found that medical records did not support one or more assigned HCCs, we
asked PacifiCare to submit additional medical records. Any additional records PacifiCare
provided went through the independent review process described above.

Also, we accepted medical records PacifiCare provided in addition to the “one best medical
record.” All HCCs that were not validated during the initial medical review were subjected to
the second medical review.

Policies and Procedures

PacifiCare Comments

PacifiCare disagreed with our finding that it did not have written policies and procedures in place
for obtaining, processing, and submitting diagnoses to CMS. In response to our recommendation
for improving its controls, PacifiCare stated that it largely used automated systems for obtaining,
processing, and submitting diagnoses to CMS and that it had documented system protocols for
processing data through its systems. PacifiCare also stated that it used the chart validation
process as a validation tool for codes related to CY 2006 dates of service. In addition, PacifiCare
stated that it strives to ensure that its practices ensure compliance with the requirements of the
Participant Guide.

Office of Inspector General Response

PacifiCare officials explained to us that the automated systems were used only to verify the
validity of the diagnosis codes; however, these systems do not validate the diagnoses. According
to the RADV process described in the 2006 Participant Guide, validating a diagnosis submitted
to CMS requires a review of the medical records. During our fieldwork, PacifiCare officials told
us that the review of medical records was not routinely performed and was used only to validate
diagnoses that PacifiCare received from providers that PacifiCare paid on a capitated basis.
Moreover, PacifiCare did not have any written policies and procedures on review of medical
records to ensure the validity of diagnoses submitted to CMS.

Invalidated Hierarchical Condition Categories

PacifiCare Comments

In an appendix to its comments, PacifiCare included a list of 22 HCCs that it believed should
have been supported by the medical records provided. PacifiCare stated that it had conducted its



                                                14
own review of the medical records from this review and concluded that at least six of the invalid
HCCs were supported by the “one best medical record” submitted. PacifiCare stated that with
the use of two levels of review (as afforded by CMS’s RADV process), these HCCs would likely
have been validated. PacifiCare also stated that it had evaluated each of the 50 beneficiaries who
had 1 or more HCCs invalidated during the data collection period and that many of them were
actually treated for the health conditions reported in the HCCs. PacifiCare stated that multiple
records should be considered together when verifying a beneficiary’s HCC. In addition, after the
issuance of our draft report, PacifiCare provided additional documentation that was not provided
to us during the first two medical reviews and new information on documentation previously
provided as to why certain HCCs were supported.

Office of Inspector General Response

We ensured that our medical review contractor had an independent review process in place to
provide two levels of review. We also accepted medical records provided by PacifiCare in
addition to the “one best medical record” we initially requested to help validate HCCs. CMS
developed the CMS model with inpatient, outpatient, and physician records used to support
HCCs. Therefore, we accepted and reviewed only those types of records for CY 2006 dates of
service.

We accepted and evaluated the additional documentation and new information that PacifiCare
provided with its comments on our draft report. In cases when (1) PacifiCare provided new
documentation or (2) PacifiCare provided a new explanation as to why the documentation
validated the selected HCC, we submitted the additional documentation to our medical review
contractor for a third medical review. We accepted the additional inpatient, outpatient, and
physician records with CY 2006 dates of services to help validate the 12 HCCs with which
PacifiCare disagreed during the first two medical reviews. For the third medical review, our
contractor followed the same protocol used during each of the first two reviews. Our contractor
found that the additional information supported and validated 6 of the 12 HCCs. We revised our
findings accordingly.




                                               15
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

SAMPLING FRAME

The sampling frame consisted of 188,829 beneficiaries on whose behalf the Centers for Medicare
& Medicaid Services paid PacifiCare of California (PacifiCare) approximately $2.3 billion in
calendar year (CY) 2007. These beneficiaries (1) were continuously enrolled under contract
H0543 during all of CY 2006 and January of CY 2007 and (2) had a CY 2007 risk score that was
based on at least one Hierarchical Condition Category.

SAMPLE UNIT

The sample unit was a beneficiary.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 beneficiaries.

SOURCE OF THE RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services, statistical software to
generate the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame from 1 to 188,829. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to
estimate the total value of overpayments.
   APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                        Sample Results
                                       Number
Sampling                           of Beneficiaries
 Frame     Sample     Value of     With Incorrect       Value of
  Size      Size      Sample          Payments        Overpayments
188,829     100      $1,383,411          45             $224,388



              Estimated Value of Overpayments
    (Limits Calculated for a 90-Percent Confidence Interval)

             Point estimate       $423,709,068
             Lower limit           288,232,331
             Upper limit           559,185,805
                                                                               Page 1 of 2


APPENDIX C: UNSUPPORTED HIERARCHICAL CONDITION CATEGORIES
                         IN SAMPLE


                            Hierarchical Condition Category
        1    Chronic Obstructive Pulmonary Disease
        2    Spinal Cord Disorders/Injuries
        3    Angina Pectoris/Old Myocardial Infarction
        4    Inflammatory Bowel Disease
        5    Breast, Prostate, Colorectal, and Other Cancers and Tumors
        6    Breast, Prostate, Colorectal, and Other Cancers and Tumors
        7    Chronic Obstructive Pulmonary Disease
        8    Septicemia/Shock
        9    Intestinal Obstruction/Perforation
        10   Disorders of Immunity
        11   Major Depressive, Bipolar, and Paranoid Disorders
        12   Spinal Cord Disorders/Injuries
        13   Nephritis
        14   Breast, Prostate, Colorectal, and Other Cancers and Tumors
        15   Major Depressive, Bipolar, and Paranoid Disorders
        16   Aspiration and Specified Bacterial Pneumonias
        17   Decubitus Ulcer of Skin
        18   Major Depressive, Bipolar, and Paranoid Disorders
        19   Vascular Disease
        20   Breast, Prostate, Colorectal, and Other Cancers and Tumors
        21   Diabetes With Renal or Periphery Circulatory Manifestation
        22   Lymphatic, Head and Neck, Brain, and Other Major Cancers
        23   Diabetes Without Complication
        24   Diabetes With Ophthalmologic or Unspecified Manifestation
        25   Breast, Prostate, Colorectal, and Other Cancers and Tumors
        26   Diabetes With Renal or Peripheral Circulatory Manifestation
        27   Angina Pectoris/Old Myocardial Infarction
        28   Ischemic or Unspecified Stroke
        29   Major Depressive, Bipolar, and Paranoid Disorders
        30   Diabetes Without Complications
        31   Parkinson’s and Huntington’s Diseases
        32   Unstable Angina and Other Acute Ischemic Heart Disease
        33   Renal Failure
        34   Unstable Angina and Other Acute Ischemic Heart Disease
        35   Nephritis
        36   Rheumatoid Arthritis and Inflammatory Connective Tissue Disease
        37   Angina/Pectoris/Old Myocardial Infarction
        38   Breast, Prostate, Colorectal, and Other Cancers and Tumors
        39   Drug/Alcohol Dependence
        40   Seizure Disorders and Convulsions
        41   Acute Myocardial Infarction
        42   Polyneuropathy
                                                                       Page 2 of 2


                    Hierarchical Condition Category
43   Diabetes Without Complication
44   Unstable Angina and Other Acute Ischemic Heart Disease
45   Diabetes With Neurologic or Other Specified Manifestation
46   Diabetes Without Complication
47   Diabetes With Ophthalmologic or Unspecified Manifestation
48   Schizophrenia
49   Ischemic or Unspecified Stroke
50   Major Head Injury
51   Hip Fracture/Dislocation
52   Breast, Prostate, Colorectal, and Other Cancers and Tumors
53   Major Depressive, Bipolar, and Paranoid Disorders
54   Breast, Prostate, Colorectal, and Other Cancers and Tumors
55   Renal Failure
56   Lymphatic, Head and Neck, Brain, and Other Major Cancers
57   Diabetes With Renal or Periphery Circulatory Manifestation
58   Major Depressive, Bipolar, and Paranoid Disorders
59   Congestive Heart Failure
60   Ischemic or Unspecified Stroke
61   Nephritis
62   Breast, Prostate, Colorectal, and Other Cancers and Tumors
63   Diabetes With Ophthalmologic or Unspecified Manifestation
64   Vascular Disease
65   Major Complication of Medical Care and Trauma
66   Rheumatoid Arthritis and Inflammatory Connective Tissue Disease
67   Diabetes With Neurologic or Other Specified Manifestation
68   Diabetes With Neurologic or Other Specified Manifestation
69   Lymphatic, Head and Neck, Brain, and Other Major Cancers
70   Major Complications of Medical Care and Trauma
71   Cardio-Respiratory Failure and Shock
72   Rheumatoid Arthritis and Inflammatory Connective Tissue Disease
73   Major Depressive, Bipolar, and Paranoid Disorders
74   Diabetes With Renal or Peripheral Circulatory Manifestation
75   Diabetes With Acute Complications
76   Diabetes Without Complication
77   Renal Failure
                                                                                                      Page 10f 36
                                   APPENDIX D: PACIFICARE COMMENTS


                                                                       Unite                       thcare~ 

                                                                                  MEDlCARE &. RETiREMENT




Lori Ahlstrand
Regional Inspector General for Audit Services
Office of Audit Services, Region IX
90-7th Street, Suite 3-650
San Francisco, CA 94103

Dear Ms. Ahlstrand:

        On behalf of PacifiCare of California, Inc. and its affiliate UnitedHealth Group (collectively
"PacifiCare") , we are writing in response to the u.S. Department of Health and Human Services
("HHS"), Office of the Inspector General ("010"), draft report dated July 22, 2010 entitled "Risk
Adjustment Data Validation of Payments made to PacifiCare of California for Calendar Year 2007
(Contract Number H0543)" (hereinafter, "Draft Report").             PacifiCare welcomes the opportunity to
comment on the Draft Report before a final report is issued, and appreciates the additional time the OIG
has given PacifiCare to submit these comments.            However, PacifiCare strongly disagrees with the
findings in the Draft Report and believes that the analysis, methodology, and extrapolation used by the
OIG in its audit are flawed .
        As you are aware, PacifiCare is one of the largest providers of Medicare Advantage ("MA") plans
in the U.S., and has participated in the Medicare Part C program as either a Medicare+Choice plan or an
MA plan since the inception of Medicare Part C.            PacifiCare has worked with both the Centers for
Medicare & Medicaid Services ("CMS") and the OIG on many occasions and has strived to be a valued
business partner with the government to ensure the program 's success. However, PacifiCare is concerned
about the findings summarized in the Draft Report, which conclude that certain diagnoses that PacifiCare
submitted to CMS for use in CMS's risk score calculations did not comply with the requirements of the
CMS ' s 2007 Risk Adjustment Data Training for Medicare Advantage Participant Guide (the "2007
Participant Guide"). The OIG determined that 90 HCCs for 50 members were invalid because (i) the
documentation did not support the associated diagnosis, or (ii) the documentation did not include the
provider' S signature.
        We believe that the OIG erred in its analysis and conclusion for several reasons, which we detail
below, including:
    • 	 The OIG's sample of 100 beneficiaries is not fully representative of beneficiaries among the
        344,000 members of the plan, nor is it fully representative of the 188,829 members who had
        a risk score based on at least one HCC. Only 49 of the 70 HCCs that appear in the


                                  Protected From Disclosure Under Federal Law 

                       Exempt from the Freedom of Information Act. See 5 U.S.c. §552(b) 

                    Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                               Page 2 of 36




         population are represented in the audit sample. As such, the OIG's extrapolation of
         invalidated diagnosis applies to 21 HCCs that appear in the population, but for whom no
         beneficiaries were audited.

    • 	 The underlying process of translating ICD-9 diagnosis codes reported on claims into HCCs
        (approach used for payment) versus employing validation contractors and a reconciliation
        process to review medical records (approach used in audit) will likely result in
        inconsistencies between HCCs derived from these two sources. HCCs determined from
        ICD-9 diagnosis codes reported on claims are likely to be different from HCCs derived from
        medical records and it is unreasonable to assume these two sources will result in the same
        HCCs. These differences are confirmed by examples of HCCs that are unsupported in the
        RADV audit of medical records, but are supported by multiple claim records by multiple
        providers. As a result, using this audit methodology to compute overpayments is
        fundamentally flawed and inappropriate.

    • 	 The OIG utilizes the CMS-HCC risk adjustment payment model (referred to as the "Pope
        model"J /) to audit the individual beneficiaries sampled from the population. The Pope
        model was not designed to make accurate predictions of capitation payments for individual
        beneficiaries, rather it was designed so that on payments on average compensate for the risk
        over a large group of beneficiaries. Given the high forecasting error associated with this
        model as acknowledged by its authors,21 the variation between actual and forecasted
        expenditures for the OIG sample may differ significantly across random samples drawn
        from the population.

    • 	 The OIG did not follow CMS's audit methodology set forth in both the 2006 and 2007
        Participant Guides to conclude that some of the diagnoses that PacifiCare submitted to
        CMS for risk score calculations were invalid.

    • 	 PacifiCare conducted its own review of the medical records that were the subject of this
        review, and concluded that many of the HCCs invalidated by OIG were, in fact, valid. At
        the very least, the OIG should correct the invalid HCCs and credit PacifiCare with the
        incidental HCCs documented in the submitted medical records before considering whether
        to issue a final report.

         Accordingly, we request that the       oro withhold finalizing its report or substantially revise it.31       In
the alternative, we ask that the 010 attach these comments as an appendix to any final report issued.                  If
010 intends to finalize the report, we request that 010 keep the final report confidential. In addition to
this response letter, PacifiCare reserves the right to submit supplemental materials either to the 010 or to
CMS.




}I Pope, G.c. , Kautter, 1., Ellis R.P. , et al.: Risk Adjustment of Medicare Capitation Payments Using the 

CMS-ACC Model. Health Care Financing Review 25(4):119141, Summer 2004. 

21 Pope et aI., (2004), p. 131. 

31 If the OIG substantially revises its report, PacifiCare requests the opportunity to review the modified draft before 

it is released. 

                                                          -2­
                                       Protected From Disclosure Under Federal Law 

                            Exempt from the Freedom oflnforrnation Act. See 5 U.s.c. §552(b) 

                        Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                        Page 3 of36




     I.     BACKGROUND

            Congress created the Medicare+Choice program through the establishment of Medicare Part C as
part of the Balanced Budget Act of 1997. 41 Although private health plans had contracted with Medicare
on a limited basis to provide services to eligible patients since the 1970s, the Medicare+Choice program
was created to significantly increase the relationship between private health plans and Medicare. Prior to
1997, payments to health plans for managing Medicare recipients' health care were based on fee-for­
service ("FFS") expenditures, adjusted by geographic areas and certain demographic factors (age, gender,
working status, and Medicaid eligibility). Medicare+Choice began a transition from a demographic­
based reimbursement model to a system using a patient's actual health status to estimate future health care
costs. 51
            In 2003, Congress revamped the Medicare Part C program through the creation of Medicare
Advantage ("MA"). Under MA, health plans are reimbursed a capitated, risk-adjusted monthly fee for
each enrollee based upon each patient' s overall health. Enrollees are assigned a risk score that reflects
their health status as determined from data submitted during the previous calendar year.               MA 's risk
adjustment methodology relies on enrollee diagnoses, as specified by the International Classification of
Disease, currently the Ninth Revision Clinical Modification guidelines ("ICD-9") to prospectively adjust
capitation payments for a given enrollee based on the health status of the enrollee. Diagnosis codes are
used to detennine the risk scores, which in turn determine risk adjusted payments for enrollees.
            The current risk adjustment model employed in adjusting MA plan payments is known as the
CMS Hierarchical Condition Category ("CMS- HCC") model. 6 1 The CMS-HCC model categorizes
ICD- 9 codes into disease groups called Hierarchical Condition Categories, or HCCs. Each HCC includes
diagnosis codes that are related clinically and have similar cost implications. In 2007, a demographic
data-only payment method was completely phased-out for MA plans, and 100 percent of each payment
for an enrollee was risk-adjusted. 71
            As CMS phased-in the application of health status risk adjustments from 2000 through 2007, and
the financial impact of risk adjustment data became more significant and the complexities of the process
became more apparent, CMS promulgated new rules regarding risk adjustment data collection. Prior to
August 2008, MA organizations ("MAOs") received instruction regarding the submission of risk adjusted


41 Pub. L. No. 105-33. 

51 Sherer R. The failure ofMedicare+Choice. Geriatric Times 2003;4:4-5. 

61 Pope et aI., (2004). 

71 CMS phased in the application of risk adjustments to payments from 2000 to 2007, with an increasing percentage 

of the monthly capitation payment subjected to risk adjustment each year. In 2007, 100 percent of payments to 

MAOs became risk-adjusted based on enrollee health status. 42 U.S .c. § 1395w- 23(a)(1)(C). 

                                                          -3­
                                       Protected From Disclosure Under Federal Law 

                            Exempt from the Freedom oflnformation Act. See 5 U.S.c. §552(b) 

                        Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                              Page 4 of36




data through eMS's annual Participant Guides. For the 2007 plan year, where payments were made
based on 2006 dates of services, MAOs relied primarily on the Participant Guide from 2006; the 2007
Participant Guide, which contained several changes from the 2006 Participant Guide, was not released
until December 2007.
        In August 2008, eMS codified the requirements regarding the submission of risk adjusted data
that generally mirrored the obligations set forth in the Participant Guides. 81 More recently, in April 2010,
eMS finalized regulations governing its risk adjustment data validation ("RADV") dispute and appeals
procedures, which in some instances formalized processes eMS had adopted in practice but had not
established in regulation. 91 This final rule also indicated eMS ' s intent to develop and release for public
comment its RADV audit and extrapolation methodology, which is still under development. 1o l These
dispute and appeals procedures recognize the complexity of the risk adjustment program and the need for
clear methodologies and avenues for dispute resolution to be established.
        Another significant development in the changing authorities governing risk adjustment data was
eMS's announcement in July 2008 of a pilot project to more extensively audit MA organizations for
payment year 2007 based on calendar year 2006 payment data. I II In this notice, eMS announced its
intent to make contract-level payment adjustments using payment error findings from a sample of
enrollees from selected contracts. This was a major change to eMS's RADV audit approach; it signaled
for the first time eMS's intent to recover contract-level payments from MAOs. Prior to this initiative,
payment adjustments were limited to enrollee-level adjustments for those enrollees sampled in the
payment validation audit. 12 1 In light of the potential impact of contract-level payment adjustments, eMS
developed several new policies. Importantly, eMS allowed MAOs selected for contract-level samples to
submit physician-signature attestations for physician and outpatient medical records. 131
        As demonstrated by these evolving authorities, there has been great flux in the development of
risk adjustment data collection policies and regulations over the past few years.                    The OIG failed to
consider this changing landscape and the complexities of risk adjusted payments in its audit and analysis.
In addition, the OIG did not follow certain procedures that eMS applied to RADV audits for risk adjusted
data collected during the data collection period. Detailed below are some of the specific factors that the

81 42 C.F.R. § 422.310; 73 Fed. Reg. 48757 (Aug. 19,2008).
91 75 Fed. Reg. 19678, 19806 (Apr. 15,2010).
101 Id . 


III See CMS Memorandum, Medical Record Request lnstructionsfor the Pilot Calendar Year 2007 Medicare Part 


C Risk Adjustment Data Validation, July 17,2008. 

121 74 Fed. Reg. 56634, 54674 (Oct. 22, 2009). We note that, to our knowledge, CMS has not extrapolated payment 

errors at the contract-level for MAOs that have been subject to RADV audits as part of the pilot project. 

131 See "MA and Part D Data: Who, What, Where, and How," slide 11 (Tom Hutchinson, 9115/09 Slide Presentation 

to America's Health Insurance Plans ("AHIP"»; See also 75 Fed. Reg. 19678,1 9742 (April 15,2010). 

                                                        -4­
                                    Protected From Disclosure Under Federal Law 

                          Exempt from the Freedom oflnformation Act. See 5 U.S .C. §552(b) 

                      Contains Confidential Commercial/Financial and Other Protected Infom1ation 

                                                                                                    Page 5 of36




OIG failed to consider when conducting the audit and calculating an alleged overpayment amount, and
some examples where the OIG failed to follow CMS processes that results in inaccurate findings.
 II.    RESPONSES TO THE OIG's RECOMMENDATIONS

           A. 	 PacifiCare Disagrees with the OIG's Recommendation that PacifiCare Refund
                $356,324,030 in Alleged Overpayments
             1. 	 Erroneous Audit and Extrapolation Methodologies
        Although the OIG asserts that it used generally accepted auditing standards, it did not.           In
conducting its audit and extrapolating an overpayment amount, the OIG disregarded several crucial
aspects of risk adjustment payments that inappropriately biases the results and reflects an exaggerated
alleged overpayment amount.
                     a. 	 Statistically Valid Random Sample
        In order for the results of an audit sample to be reliably extrapolated to the population, the sample
itself must be both random and representative of the population. The sample of 100 beneficiaries 141
utilized by the OIG is not fully representative of beneficiaries among the 344,000 members of the
population, nor is it fully representative of the 188,829 members who had a risk score based on at least
one HCC. Only 49 of the 70 HCCs that appear in the popUlation are represented in the RADV audit
sample. As such, the   ~IG ' s   extrapolation of invalidated diagnosis applies to 21 HCCs that appear in the
population, but for whom no beneficiaries were audited, and therefore is not an accurate representation of
the population.
        There are at least two ways that the sample could have been drawn to ensure representativeness.
First, a larger sample would have a higher probability of drawing all of the HCCs that appear in the
population during the relevant period. A sample size of 100 is too small to account for the tremendous
diversity of the beneficiaries in the population.
        Alternatively, the samples could have been stratified, just as CMS stratifies its sample population
as discussed in more detail below.         Stratification would have involved dividing the population into
subgroups, for example one for each HCC in the population, and then drawing a random sample of claims
from each subgroup. There are a number of advantages to stratification, notably a reduction in sampling
variance relative to a simple random sample. In addition, stratification is routinely employed for exactly
the reasons suggested here: A simple random sample, particularly a small one, may not include enough of
particular subgroups to ensure representativeness and reliable statistical inference. A stratified sample



141 Under established CMS standards, CMS generally draws a sample of at least 200 members when conducting an
RADVaudit.
                                                        -5­
                                    Protected From Disclosure Under Federal Law
                          Exempt from the Freedom ofInformation Act. See 5 U.S.C. §552(b)
                      Contains Confidential Commercial/Financial and Other Protected Information
                                                                                                                                                                          Page 6 of36




allows for oversampling of relevant subgroups, which are then reweighted according to their population
frequency.
                 In this case, the sample could have been stratified to include at least one beneficiary for each of
the 70 HCCs in the population to ensure that all of the relevant traits in the population are represented. Of
course, a sample of 100 would produce many strata with only one observation, but that is a reflection of
the fact that a diverse population requires a larger sample in order to ensure representativeness. The fact
that the total number of sample points (100) is not much larger than the number of proposed strata 70 is a
strong indication that a sample size of 100 is inadequate for the population under study.

                                                      Fr equency of HCCs in Population and Sample
                                                      (HCCs ordered by increasing frequency in population)
           25%   r ···· --·.-··-·--·-----··---·--··.·---·- ----·-·---·····-.....------.---.-.------.--....- ..-........------ .--..---...-----..---- - .....-.--.... ---------.-..-.-~   





           20%
  I.J
  I.J
  J:
  .r:.
  .~
           15%
   ~
   <IJ
  .0
   E
   <IJ

  ...:iE
  ...
   0
   C

           10%

   <IJ 

   ~
   <IJ
  Q.

           5%




                                                                                        Hierarchical
                                                                                     Condit ion Categories


                 The chart above shows the frequency distribution among HCCs for both the population of
188,829 members with at least one HCC and in the audit sample.                                                                       The match between the two
distributions is generally poor, even among some of the HCCs that are more prevalent in the population.
In particular, the current sample of 100 does not even account for a significant number of HCCs in the
population - fully 21 HCCs are not represented in the sample.
                 Moreover, a comparison of the OIG's sample as compared to the sample frame used by OrG for
its audit (i.e., PacifiCare's population) shows that the OIG 's random sample is not statistically valid:
                       •      The Average Risk Adjustment Factor (RAF) Sample Mean Is not Representative of
                              the Population. 	 The average RAF for all members in the sample is 1.64, but the average
                                                                                          -6­
                                                     Protected From Disclosure Under Federal Law 

                                          Exempt from the Freedom ofInformation Act. See 5 U.S.C. §552(b) 

                                       Contains Confidential Commercial/Financial and Other Protected lnfonnation 

                                                                                                        Page 7 of36




                    RAF for all the members in the population is 1.46. Using the sample mean, population
                    variance, and standard normal z statistic, the 90% confidence interval for the RAF
                    population mean is (l.48, 1.80), indicating that the actual population mean is not within
                    in the confidence interval. This indicates that the RAF sample mean is not statistically
                    equal to the RAF population mean, and the sample is not representative of the sample
                    frame with respect to RAF.15/
                • 	 The Average Number of HCCs Per Member in the Sample is Higher than the
                    Average Number of HCCs in the Population.                    The average number of HCCs per
                    member in the sample is 2.61 , whereas the average number of HCCs per member in the
                    population is 2.33 . Based on the average number of HCCs per member in the sample, the
                    variance of number of HCCs per member in the population, and the standard normal z­
                    statistic, the 90% confidence interval of the average number of HCCs in the population is
                    (2.31,2.90). Although the 90% confidence interval includes the population mean at the
                    extreme low end of the interval (the probability of drawing a sample with a mean of 2.61
                    or greater is 5.8%), the higher number of HCCs per member in the sample is consistent
                    with the high average RAF in the sample versus the population. This suggests that the
                    sample is not representative of the population with respect to RAF and number of HCCs.
                    Coupled with the statistically significantly higher RAF of the sample, even if the sample
                    overpayment has been detennined accurately, extrapolation of the overpayment to the
                    population is not accurate, and will result in a significant overstatement of the population
                    overpayment. 16/
           Stratification would have ensured that the sample was more representative of the population. As
discussed in the section below, stratification with respect to RAF would have ensured that the RAF in the
sample was representative of the population. In addition, the OIG did not design the sample to account
for the diversity of beneficiaries in the population with regard to HCC. The lack of representativeness of
the sample for the population in question significantly reduces the reliability of the extrapolated
overpayment determinations.
                         b. 	 OIG's Audit and Extrapolation Methodology Has No Grounding in CMS
                              Policies and Procedures

           Importantly, the OIG conducted this Audit and determined a payment error using a methodology
that fails to follow CMS procedures.               When CMS conducts RADV audits, it employs stratified

151   See the attached Appendix A for additional analysis.
161   [d.
                                                             -7­
                                       Protected From Disclosure Under Federal Law 

                            Exempt from the Freedom oflnformation Act. See 5 U.S.c. §552(b) 

                         Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                        Page 80f36




proportional sampling. Eligible members are ranked from lowest to highest risks scores, and the sample
frame is divided into thirds to establish low, medium, and high RAF strata with an equal number of
randomly selected members in each strata of the sample. l7i The enrollee sample weight is then computed
as a total number of enrollees in the eligible population stratum divided by the number of sample
enrollees for that stratum. 18 1 Presumably, CMS employs this methodology to ensure that the audit sample
is both random and representative of the population with respect to RAF. As discussed above, it is
important for the sample to be both random and representative of the population in order for the results of
an audit sample to be reliably extrapolated to the population.
        PacifiCare's analysis of the sample shows that OIG did not follow CMS's sampling
methodology . After the population is ranked by RAF, 25 members were taken from the lowest 1/3 of the
population, 34 members from the medium RAF stratum, and 38 members from the high RAF stratum. 191
If the OIG had followed stratified proportional sampling, the sample would have had approximately 33
observations from each of the stratum.
        In addition, the OIG recommends a repayment amount using a methodology that has not been
vetted by CMS and on which MAOs have not had the opportunity to comment. To date, CMS has only
made enrollee-level adjustments for those enrollees sampled in an RADV audit under the 2006 and 2007
Participant Guides. 20 1 On the heels of the new regulations that establish appeal rights for MAOs subject
to RADV audits, and given the significance of contract-level adjustments, CMS has declared that it will
implement three steps to ensure that the RADV process is transparent to audited MAOs and the pUblic.2lI
First, CMS will incorporate an additional independent third party review to replicate and validate the
payment determinations that result in CMS's error calculation. The independent third party will employ
the same error-calculation criteria that will be used by CMS in preparing its initial error calculation.
Second, CMS intends to publish its RADV methodology in "some type of CMS document - most likely a
Medicare Manual, so that the public can review and provide comment as it deems necessary" before




171 See "Sampling Analysis and Payment Error Estimates," slide 103 (Lateefa Hughes, October 23,2009 slide
presentation entitled "Presentation CY 2007 CMS Risk Adjustment Data Validation MA Organization Training").
181 fd.

191 Three members in the sample were hospice beneficiaries as of January 1, 2007 and therefore were not subject to
the risk adjustment model. As a result, the RAF for these members is zero.
201 74 Fed. Reg. 56634,54674 (Oct. 22, 2009). As discussed in Section I, CMS announced its intention to make
contract-level payment adjustments using payment error findings from a sample of enrollees for those MAOs
selected to participate in the RADV pilot project. CMS has not announced any extrapolation methodology and, to
our knowledge, CMS has not extrapolated payment errors to the contract-level against MAOs that have been subject
to RADV audits as part of the pilot project.
2 11 75 Fed. Reg. 19678, 19746, 19753 (April 15, 2010).

                                                        -8­
                                    Protected From Disclosure Under Federal Law
                          Exempt from the Freedom oflnformation Act. See 5 U.S.c. §552(b)
                      Contains Confidential Commercial/Financial and Other Protected Information
                                                                                                      Page 90f36




implementing. 22 1 CMS has recognized that there are complexities in validating risk adjusted payments
and extrapolating discrepancies to the contract level, but has not yet revealed its methodology for doing
so, and it is uncertain whether and when CMS will begin employing such measures. Third, CMS will
describe CMS ' s RADV methodology in each audited organization' s RADV Audit Report. 23 1
           The OIG's RADV process and payment calculation reflected in the Draft Report fails to comply
with two important steps announced by CMS.
                 • 	 The OIG did not follow an established CMS methodology to calculate payment errors.
                     Indeed, CMS has not proposed any methodology for calculating Part C payment errors ­
                     certainly none on which PacifiCare has had an opportunity to comment.              OIG's
                     application of an extrapolation methodology is therefore both premature and
                     inappropriate.
                 • 	 Further, the OIG did not adequately describe its own payment calculation and
                     extrapolation methodology - which must mirror the yet to be determined CMS
                     methodology- in the Draft Report nor did it describe the bases for any such
                     methodology.
           The OIG's failure to follow CMS 's procedures in conducting the Audit and the lack of detail
regarding its payment calculation and extrapolation methodology result in a payment error calculation
that is not only premature and inappropriate, but also fails to provide enough detail about its methodology
to allow PacifiCare to challenge the OlG's findings . Until a payment error calculation and extrapolation
methodology is released by CMS and the public has an opportunity to comment on such methodology, it
is inappropriate for the OIG to recommend any contract-level adjustment.

                        c. 	 The OIG's Audit Model Does Not Reflect eMS's Payment Model
           Risk adjusted payments to MAOs are determined based on the health risks posed by individual
beneficiaries. Each Medicare member is assigned an individual risk score, which is determined from
historical health conditi ons.      Specifically, CMS primarily utilizes ICD-9 codes submitted by treating
providers on claims in the previous year to compute the risk score and resulting payment for each
individual for the current year.         CMS has adopted a methodology, based on the Pope model,          that
translates ICD-9s into Hierarchical Condition Categories (HCCs) by mapping the ICD-9s into Diagnostic
Groups (DxGroups), which are subsequently mapped into Condition Categories (CCs) based on the CMS­
HCC risk adjustment payment model. 24/ A set of hierarchical conditions are then imposed on the CCs to

221   ld.
231   42 C.F.R. § 422.311(c)(3)(vi); 75 Fed. Reg. 19678, 19746, 19753 (April 15, 2010).
241   Pope et aI., (2004).
                                                           -9­
                                       Protected From Disclosure Under Federal Law
                             Exempt from the Freedom oflnformation Act. See 5 U.S.C. §552(b)
                         Contains Confidential Commercial/Financial and Other Protected Information
                                                                                                       Page 10 of36




obtain HCCs. HCCs are computed as a function of ICD-9 codes, where various ICD-9 codes are mapped
into Diagnostic Groups, CCs, and finally HCCs.
        CMS also commissioned the development of a statistical risk adjustment payment model to
predict members' medical costs, which is used to determine MA risk adjusted payments. The model
includes statistically estimated coefficients for HCCs, as well as gender, age, Medicaid/disabled
indicators and interaction terms. 25 1 CMS uses the functional form and coefficients from the statistical
estimation process to compute the capitation payment for each beneficiary.
            In an effort to evaluate whether risk adjusted capitation amounts paid to MAOs are accurate,
CMS uses a RADV audit process which, like the risk adjustment payment model, relies on the predictions
from the Pope model. A sample of beneficiaries is selected from an MAO and specific contract, and
CMS evaluates whether the payment HCCs assigned to each individual are supported by medical records
from the previous year. MAOs must submit to CMS the "one best medical record" that supports each
HCC. 261
        One of the fundamental premises of this audit process is that HCCs derived from medical records
should be equal to HCCs derived from claims submitted by treating providers, and differences between
HCCs derived from medical records and HCCs derived from claims are "payment errors," and any
overpayment must be refunded to CMS. However, we suggest that differences between HCCs derived
from medical records and HCCs derived from claims are not payment errors, but rather are the results of
two different inputs into the risk adjustment payment model: claims and medical records. Furthermore,
since the payment model is estimated based on HCCs derived from claims, we believe it is inappropriate
to use HCCs from medical records as model inputs to compute capitation amounts for the following
reasons :

                           1) 	 HCCs derived from medical records are not the same as HCCs derived
                                from claims data
            During the OIG RADV audit, the OIG's validation contractors determined whether each HCC
derived primarily from claims data submitted for each member was supported or not supported by the
MAO-submitted "one best medical record."                 HCCs determined from claims submitted by treating
providers are likely to be different from HCCs derived from validation contractors and medical records.
Studies have shown that the diagnoses contained in medical records and diagnoses identified in claims




251Pope et a\., (2004). 

261Centers for Medicare & Medicaid Services: CY200 7 CMS Risk Adjustment Data Validation MA Organization 

Training, PowerPoint Presentation, Baltimore, Maryland, October 23,2009). 

                                                          - 10­
                                      Protected From Disclosure Under Federal Law 

                            Exempt from the Freedom oflnformation Act. See 5 U.S.C. §552(b) 

                        Contains Confidential CommerciallFinancial and Other Protected Information 

                                                                                                            Page 11 of36




are, in practice, inconsistent. 271 This inconsistency, that is, the discrepancy between HCCs derived from
claims data and HCCs derived from medical records, has been termed the "error rate" in the industry.
           HCCs identified from medical records are not likely to be equal to HCCs determined from claims
data for two reasons. First, information contained in claims data is not equal to the information contained
in medical records. Second, the process used to develop HCCs from medical records is different from the
process used to determine HCCs from claims data.
           In many instances, coding and medical records contain different information. Reasons include:
               o   lack of documentation in either claims or medical records;
               o   ambiguities in coding specific conditions;
               o   errors in coding or medical record errors; or
               o   Differences in interpretation of medical notes including lab results.
           Discrepancies and errors in diagnosis codes are well documented (See Appendix B for a summary
of research).      CMS conducts regular coding audits and reports coding discrepancies and errors. 28i
Authors of the CMS-HCC risk adjustment payment model acknowledged the presence of judgment in
coding and coding errors: "Concern about the quality of diagnostic reporting is the greatest in physician
offices, where the diagnoses have not heretofore affected payment, and recording of diagnoses is less
rigorously practiced than in hospitals."     29/   Although efforts to reduce coding errors are important, errors
are unlikely to ever be completely eliminated as long as coding includes human interpretation and
judgment, and data entry.
           In addition, the process of identifying HCCs from claims data is very different than the audit
process.     HCCs from claims are derived by mapping ICD-9s through diagnosis groups, condition
categories, and applying hierarchies to arrive at HCCs, whereas HCCs derived from medical records are
determined using verification contractors and a rule-based reconciliation process.                     These are very
different methods for determining HCCs and process differences are likely to account for inconsistencies
in HCCs.
                           2) 	 HCCs derived from medical records are not the appropriate input for the
                                 model to compute capitation payments

           The statistical model developed to determine capitation payments was developed based on HCCs
identified from ICD-9 codes found in claims. 30/ In statistical terms, the data generation process for HCCs


27/ See e.g., Measuring Diagnoses: ICD Code Accuracy, Health Service Research 2005 October; 40(5 Pt 2): 1620­
1639). This article can be obtained at: http://www.ncbi.nlm.nih.gov/pmc/articles/PMC1361216/.
28/ See
      ~,~~~~"=~~~~~~.~~"~.


29/ Pope et aI., (2004), p. 121.
30/ Pope et aI., (2004).

                                                         - 11 ­
                                      Protected From Disclosure Under Federal Law 

                           Exempt from the Freedom ofInformation Act. See 5 U.S.C. §552(b) 

                        Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                      Page 12 of 36




derived from claims data is very different from the data generation process for HCCs derived from
medical records. As a result, it is inappropriate to use one HCC methodology in a model developed for
the other. Furthermore, there is no assurance that forecasted expenditures are accurate or even unbiased.
ICD-9 errors and coding patterns due to ambiguities and judgment are implicit in the model where HCCs
are derived from claims data. As long as the errors and coding patterns are consistent between the model
estimation data and the forecast period data, this model will continue to accurately forecast medical
expenditures.
           However, if CMS wishes to determine payments based on a statistical model where HCCs are
derived from medical records, then a statistical model utilizing this framework should be developed from
the ground up. This would require developing a sample of data using verification contractors and the
reconciliation process to obtain HCCs from medical records. Estimation of a statistical model that uses
HCCs derived from medical records as independent variables and medical expenditures as the dependent
variable would be required.          The functional form, including statistically significant HCCs, and the
estimated coefficients would likely be different between the two models based on how HCCs were
derived.
           The precise relationship between HCCs derived from medical records and HCCs derived from
claims data is not clear without further research. HCCs derived from medical records could be biased or
unbiased with respect to HCCs derived from claims data. Further, even if HCCs derived .from medical
records is an imprecise, but unbiased estimate of HCCs derived from claims data, the CMS audit policies
including (i) inability to introduce new HCCs, (ii) "one best medical record," and (iii) the exclusion of all
beneficiaries with no HCCs from the audit would all result in a bias toward decreasing the number of
HCCs and lower capitation payments.              Given the inexact relationship between HCCs derived from
medical records and HCCs derived from claims data and the one-sided implementation of the audit rules
(i.e., elimination of all opportunities to increase number of HCCs), audits will almost always result in
equal or fewer HCCs and equal or lower capitation payments.
           CMS has recognized that it is necessary to "refine the error rate calculation" to account for any
error rates inherent in Medicare FFS data that affect MA error rates. 3 11 The OIG disregarded this
important factor in reaching its conclusions. Unless and until CMS hones this process for determining
"error rates," which it is considering, it is inappropriate for the OIG to recommend a contract-level
payment amount. In particular, the audit and extrapolation methodologies employed in the OIG Audit are
fundamentally at odds with the MA risk adjustment payment model. The MA risk adjustment model was


31/
      75 Fed. Reg. 19678, 19746, 19749 (April 15,2010).
                                                          - 12 ­
                                       Protected From Disclosure Under Federal Law
                            Exempt from the Freedom ofinformation Act. See 5 U.s.c. §552(b)
                         Contains Confidential Commercial/Financial and Other Protected Information
                                                                                                    Page 13 of36




developed using Medicare FFS claims data for the purpose of establishing "comparable" payments to
MAOs intended to represent an actuarial estimate of the risk present in MAO plan membership relative to
that of the Medicare FFS population.
        Given this correlation to FFS claims data, to achieve a fair and accurate result, the audit of MA
risk adjustment data using a medical record review must take into account the circumstances of the
underlying FFS data used to develop the model, specifically the recognized potential disparity between
the diagnoses reported by providers on claims, which were used in developing the model, and those fully
documented in medical records, which were not used in developing the model. To determine whether an
MA organization's payments accurately reflect what would be paid to treat a FFS population based on the
claims data submitted for the FFS population, the OlG needs to determine the level of disparity between
the FFS claims data and the FFS medical record data, and the impact of translating that data in HCCs
based on the claims data. The OIG audit results do not reflect such a comparison. Instead, the OIG
recommends adjusting MA payments at the contract level based solely upon alleged coding errors in
member medical records without any consideration of the extent to which these alleged "errors" or
discrepancies are reflective of similar differences found in Medicare FFS.
                         3) 	 The Risk Adjustment Payment Model Was Not Designed To Be Used to
                             Make Predictions For Individual Beneficiaries

        In the OlG audit, a sample of 100 beneficiaries was drawn from a population of 188,829
beneficiaries in PacifiCare of California. The audit included using medical records to either "support" or
"not support" the existence of all HCCs for the sample of 100 beneficiaries. By using the "supported"
HCCs, and employing the underlying statistically-developed risk adjustment payment model by Pope et
al., 32! the OIG recalculates MA payments for this sample. The recalculated expenditure is the amount that
OIG suggests should have been paid to PacifiCare for the sample for CY 2007. The difference between
this new value and what was paid is defined by OIG as overpayment (or underpayment). Subsequently,
this difference is extrapolated to the population of 188,829 beneficiaries to compute the total
overpayment.
        While accurate for large populations, the model developed by Pope et al. to assign HCCs and
predict costs was not designed to produce results for individual beneficiaries. The regression equations in
the risk adjustment payment model can be used to determine the HCCs and make cost predictions for the
average beneficiary in a relatively large subgroup, but there is substantial unexplained variation among
beneficiaries not accounted for. The R-squared of the best model is under 13%, and as a result, the


321 Pope et al.: Risk Adjustment of Medicare Capitation Payments Using the CMS-HCC Model, Health Care
Financing Review 25(4), 119-141, Summer 2004.
                                                       - 13 ­
                                   Protected From Disclosure Under Federal Law 

                         Exempt from the Freedom ofinformation Act. See 5 U.S.c. §552(b) 

                     Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                            Page 14 of36




prediction for any individual beneficiary may be significantly in error.                 Inferences about the nature of
specific elements of a population based solely upon aggregate statistics collected for the group to which
those individuals belong is commonly known as the ecological fallacy.                        This fallacy assumes that
individual members of a group have the average characteristics of the group at large. For example, if a
particular group of people are measured to have a lower average income than the general population, it is
an error to assume that all members of that group have lower income than the general population. For
any given individual from that group, there is no way to know if that person has a lower than average
income, average income, or above average income compared to the general population. In the same way,
predictions made utilizing the Pope model should only be applied to large populations of beneficiaries to
ensure that random but significant differences among beneficiaries which are not captured by ICD-9
codes do not produce predicted capitation payments that deviate dramatically from actual values. Indeed,
in the Pope model, all of the comparisons of predictive accuracy are made for large subcategories of
beneficiaries, and even then for some of those subgroups the model can under or over predict by as much
               3' 1
as 30 percent. .,

                         d. 	 The Error Rate of the Risk Adjustment Payment Model Should Be
                              Incorporated In Computing the Overpayment Confidence Interval
            Another result of using the risk adjustment model as an audit tool is that the confidence intervals
computed by the OIG auditor are understated, perhaps significantly. The OIG auditor computes a 90%
confidence interval that reflects extrapolation from the sample of 100 audited beneficiaries to the
population. However, this confidence interval reflects only the sampling variance in the overpayment
(underpayment) amounts, and does not incorporate uncertainty due to the risk adjustment payment model
used to forecast expenditures from HCCs. The aggregate error of this model, when applied to large
populations, is small relative to the aggregate capitation payments.                  However, as with all statistical
models used to predict future health expenditures based on past health conditions, the predictive accuracy
of the model is relatively low for a small set of individuals. For a sample of 100, combining the forecast
variability with the sampling variability will increase the confidence interval relative to that proposed by
OIG.
            The OIG used a bootstrap methodology to estimate the 90% confidence interval for the total
sample frame overpayment.            This approach used estimated errors from the risk adjustment payment
model, and the sample overpayments of 100 members from Appendix C in the draft report.                          Under
specific conditions of the error terms in the risk adjustment payment models, the overpayment confidence



331   Pope et aI., (2004), Tables ES-3 through ES-6.
                                                            - 14 ­
                                        Protected From Disclosure Under Federal Law 

                              Exempt from the Freedom ofInformation Act. See 5 U.S.c. §552(b) 

                          Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                           Page 15 of36




interval is estimated to be (-$120M, $1,13 7M) (details provided in Appendix C). This confidence interval
on the total overpayment is significantly wider than ($356M, $652M), which was reported in the OIG
draft.     Including the model error terms in addition to overpayments suggests that the estimated total
overpayment can be highly inaccurate.
            Additional work is needed to identify the most appropriate methods for including model errors in
the overpayment confidence interval. Although alternative approaches may be more appropriate, model
errors should be explicitly considered when extrapolating audit results to the population. Furthermore,
inclusion of model errors will result in a wider confidence interval for total overpayments.                    At a
minimum, finalization of the report would be inappropriate without further analysis.

                         e. 	 The OIG Fails to Account for Members Who Terminated Coverage or
                              Changed Status
            In the Draft Report, the OIG extrapolates alleged overpayments from the 100 member sample to
the entire population of members who had at least one HCC and continuous enrollment from January
2006 through January 2007. However, this methodology does not account for differences between the
sample population and the larger extrapolation population.                  For example, the OIG did not consider
members who moved to different plans or passed away during the 2007 payment year in the larger
population to which the alleged overpayment has been extrapolated.                       In addition, this membership
includes beneficiaries whose status changed during the payment year (e.g., the members were transferred
to institutions, hospice or dialysis).          Extrapolation of an alleged overpayment to these members is
inappropriate because their capitation payments are calculated using a different rate methodology than is
used for the general membership. The             ~IG 's   methodology must account for these differences before
proposing any extrapolation.
                         f. 	 Erroneous Audit Processes and Standards
            The OIG is required, both by law 341 and by the stated objective of its audit, to follow CMS's
guidance and regulations governing RADV audits in conducting this audit. However, the OIG failed to
follow CMS processes, and in doing so, exceeded its authority and arrived at inaccurate results that
contradict CMS practices and stated policies and methodologies. To start with, the OIG should have used
the 2006 Participant Guide as its benchmark against which to evaluate PacifiCare' s compliance with
CMS's requirements. Although the substance in the 2006 and 2007 Participant Guides are similar with
respect to RADV audits, CMS afforded MAOs greater latitude pursuant to the guiding principle
articulated in the 2006 Participant Guide in the submission of supporting medical record documentation


341
      5 U.S.C.A. App. 3, § 2.
                                                            - 15 ­
                                        Protected From Disclosure Under Federal Law 

                              Exempt from the Freedom oflnformation Act. See 5 U.S.c. §552(b) 

                          Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                      Page 16 of36




than was granted in the 2007 Participant Guide. As noted above, the 2007 Participant Guide was not even
published until December 2007, yet the OIG as applied it to medical records that were created in 2006 for
purposes of this audit.
        CMS provided the following flexibility to MAOs subject to RADV audits per the guiding
principle reflected in the 2006 Participant Guide:
             The medical record documentation must show that the HCC diagnosis was assigned
             within the correct data collection period by appropriate provider type (hospital
             inpatient, hospital outpatient, and physician) as defined in the CMS instructions for
             risk adjustment implementation. In addition, the diagnosis must be coded according
             to International Classification of Diseases, Ninth Revision, Clinical Modification
             ("ICD-9-CM") Guidelines for Coding and Reporting. MA organizations will be
             allowed more flexibility, per the guiding principle, in the submission of supporting
             medical record documentation when responding to a medical record request. 35 1

Some specific examples of how the OlG failed to follow CMS procedures include:
                          1) StratifYing the Audit Sample
        As discussed above, when CMS conducts RADV audits, it uses stratified proportional sampling
with respect to RAF to create the sample. 361 Stratification ensures that the sample is both random and
representative of the population so that the results of an audit sample to be reliably extrapolated to the
population. In its Audit, not only did the OIG not follow CMS processes for sample selection, it failed to
stratify the sample as discussed in detail above.
                          2) Incidental HCCs
        The OlG failed to consider additional HCCs that were identified incidentally during the Audit in
accordance with CMS practices. Although CMS 's RADV process accounts for both underpayments and
overpayments, the O]G did not take into consideration underpayments in the Draft Report. That is, CMS
will credit MAOs with additional HCCs that are identified during the medical review as being
documented in the medical record, but that had not originally been reported to CMS. 371 PacifiCare's
review of the medical records submitted to the OlG in support of the audited HCCs confirms that the
medical records also support at least 10 incidental HCCs for certain members. 381 Under established CMS
standards and practices, PacifiCare would receive credit for these HCCs in evaluating the impact of any


351 2006 Participant Guide, 8.1.3. (Emphasis added.) 

361 See "Sampling Analysis and Payment Error Estimates," slide 102 (Lateefa Hughes, October 23, 2009 slide 

presentation entitled "Presentation CY 2007 CMS Risk Adjustment Data Validation MA Organization Training"). 

371 Id.

381 Please see TAB 2 in the spreadsheet attached at Appendix D with member-diagnosis level detail that explains
why we believe PacifiCare should receive credit for certain incidental HCCs. Please note that the information
contained in the attached spreadsheet is privileged and confidential, and protected from disclosure under the
Freedom ofInformation Act,S U.S.c. § 522(c).
                                                       - 16 ­
                                    Protected From Disclosure Under Federal Law
                          Exempt from the Freedom ofInformation Act. See 5 U.S.C. §552(b)
                      Contains Confidential Commercial/Financial and Other Protected Information
                                                                                                         Page 17 of36




HCCs that OIG believes do not validate. Because the OIG has refused to consider these HCCs, its
analysis is contrary to CMS standards and its results are inaccurate.
                             3) Physician Signature Attestations
            The OIG did not follow CMS's audit methodology when it refused to accept physician signature
attestations submitted by PacifiCare. The OIG determined that nine HCCs were invalid, in whole or in
part, due to missing physician signatures or credentials. For the pilot project RADV audits, where
payment errors could be extrapolated to the contract-level, CMS accepted physician-signature attestations
for physician and outpatient medical records that show that the physician and other practitioners had the
requisite signatures and credentials. 391          CMS permitted this additional information because it has
recognized that "fonn over substance" errors should not be given as much weight as actual payment
          40 1
errors.          This was an important allowance for MAOs subject to the RADV pilot project, given the
intention to make contract-level payment adjustments using payment error findings from the selected
sample. The financial impact of the adjustments was recognized by CMS and such attestations were
required to avoid skewed, inaccurate results.             Thus, at a minimum, the OIG should not recommend
extrapolation of any alleged overpayment to the contract-level as part of this Audit where it does not
accept such attestations.
                             4) Individual Payment Adjustments
            Importantly, neither the 2006 nor the 2007 Participant Guides contemplate extrapolating
"overpayments" to the contract level using risk adjusted discrepancies discovered in an RADV audit.
Prior to the application of the pilot project, CMS made payment adjustments only for those enrollees
sampled in the payment validation as part of its routine validation process. Thus, the OIG should not
recommend extrapolation for any alleged overpayment to the contract-level as part of this Audit, as the
explicit scope of the review is to determine compliance with the 2007 Participant Guide.
                             S)   Two Levels ofReview
            The OIG denied PacifiCare certain processes provided in both the 2006 and 2007 Participant
Guides. When conducting RADV audits, CMS contracts with two independent review contractors to
conduct medical record reviews.            The Initial Validation Contractor (lVC) facilitates the process and
conducts the initial review of medical records. All identified discrepancies 41 1 identified by the        rvc are
subject to a second, independent medical record review by the Second Validation Contractor (SVC) to


391 See "MA and Part D Data: Who, What, Where, and How," page 11 (Tom Hutchinson, 9115/09 Slide Presentation 

to America's Health Insurance Plans ("AHIP")); See also 75 Fed. Reg. 19678, 19742 (April 15, 20 I 0). 

401 75 Fed. Reg. 19678,19749 (April 15, 2010). 

411 Data discrepancies can include coding discrepancies, invalid medical records, or missing information. See 2006 

Participant Guide 8.2.5.1,2007 Participant Guide 7.2.5.1. 

                                                            - 17 ­
                                        Protected From Disclosure Under Federal Law 

                             Exempt from the Freedom oflnformation Act. See 5 U.S.C. §552(b) 

                          Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                         Page 18 of36




confirm the discrepancy. The SVC receives any discrepant medical records from the IVC, confirms risk
adjustment discrepancies that are identified by the IVC, and implements an appeals process. 421 The IVC
and SVC are blind to each other' s findings. 431 CMS shares any plan level findings to the selected MAOs,
which may include a response rate, data discrepancy rates, and risk adjustment discrepancy error rates.44 1
           CMS' s process for allowing two levels of review mitigates discrepancies due to inter-rater
reliability. That is, for any particular coder, there will be errors in the subjective interpretations of the
individual claims. In practice, different coders may reach different conclusions with regard to the same
claim. As such, a proper sampling design would dictate the inclusion of a sufficient number of claims for
each auditor (so that possible errors in the subjective interpretation of claims reviewed by that auditor are
averaged out) and the use of mUltiple coders (so that the normal expected variation among auditors is
averaged out). However, the OIG did not provide PacifiCare with the same procedural protections.
Instead, if an HCC did not did not validate under the OIO's review, the medical review contractor
subjected the HCC to another review by staff unaware of the first reviewer' s determination.                  The
associated relationship between the OIG reviewers further brings into question the accuracy of the OIG's
analysis and findings, as is evidenced by the conditions identified by PacifiCare that were in fact valid,
discussed in Section III below.

               B. 	 PacifiCare Disagrees with the OIG's Findings that PacifiCare did not have Written
                    Policies and Procedures in Place
           The Draft Report asserts that PacifiCare did not have written policies and procedures for
obtaining, processing, and submitting diagnoses to CMS. PacifiCare respectfully disagrees with this
conclusion.       PacifiCare largely uses automated systems for obtaining, processing, and submitting
diagnoses to CMS, and had documented system protocols for the processing of data through its systems.
The OIG also concludes that PacifiCare did not routinely use chart validation as a preventative practice,
but instead used it as a response to external auditors ' requests for documentation. Again, we respectfully
disagree with this conclusion. PacifiCare' s chart validation process includes the review of a provider's
patient charts to determine whether the charts support certain codes that the provider reported. PacifiCare
selects a provider for chart validation based principally on whether the provider' s coding was unusually
high compared to a national benchmark established by our risk adjustment system. The chart validation




421   2006 Participant Guide, Section 8.1.6; 2007 Participant Guide, Section 7.1.6. 

431   See "Risk Adjustment Data Validation (RADV) and Prescription Drug Event Data Validation Program 

Overview" (Tom Hutchinson Slide Presentation, accessed at 

http://www.iceforhealth.orQ/podcastl2010011 3 02 ICEConf2009 I ERiskAdiDataVaLpdf ). 

441 2006 Participant Guide, 8.2.6, 2007 Participant Guide, 7.2.6. 

                                                            - 18 ­
                                        Protected From Disclosure Under Federal Law 

                              Exempt from the Freedom ofInformation Act. See 5 U.S.c. §552(b) 

                          Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                                 Page 19 of36




process tests the provider's deviation from that benchmark. Codes found to be inaccurate or incomplete
through chart validations are deleted.
             In addition, PacifiCare has implemented a number of provider education and outreach initiatives
that stressed the importance of proper coding and documentation.                     PacifiCare shared with the OIG
examples of these initiatives, including flyers that discussed symptoms of specific diagnoses such as
depression and cancer to ensure that providers were not inappropriately assigning these ICD-9 codes, as
well as documents that were presented to network provider groups that emphasized the importance of
accurate documentation.
                C. 	 PacifiCare Strives to Ensure its Practices to Ensure Compliance with the
                     Requirements of the Participant Guide
          As stated previously, there has been great flux in the development of risk adjustment data
collection policies and regulations over the past few years. PacifiCare keeps current with the guidance set
forth by CMS, and is dedicated to ensuring that all requirements are met. As discussed in the section
above, PacifiCare maintains operational policies and procedures designed to ensure compliance with
CMS requirements, and consistently seeks to improve its practices as requirements change in order to
maintain its compliance.
   III.      MAN Y OF THE CONDIT IONS INVALIDATED BY THE               OIG ARE VAL ID
             In response to this audit, PacifiCare conducted its own review of the medical records that were
the subject of this review and concluded that at least six of the OIG's invalidated HCCs were, in fact,
supported by the "one best medical record" submitted to the OIG. 45 / Ifsome of the procedural protections
that CMS affords were in place, such as the use of two levels of review, we expect that these HCCs would
have been validated.         Our analysis of the alleged overpayment amount - using the calculation
                                                                                    46
methodology used by the OIG - is reduced from $266,880 to $201,823                       /   if the additional HCCs we have
identified are considered. Notwithstanding our previously stated concerns regarding the validity of the
OrG ' s sampling and extrapolation methodologies, the individual impact of each of these HCCs on the
OIG's recommended extrapolation would be substantial, and the precision of the OIG' s calculation of
extrapolation falls significantly if the attached HCCs are considered. Accordingly, we urge the OIG to
evaluate carefully each ofthese HCCs before issuing a final audit report in order to support the objectives
of the audit to ensure that PacifiCare received accurate payments for the health status of its members.


451 Pleasesee TAB 3 in the spreadsheet attached as Appendix D with member-diagnosis level detail that explains
why we believe PacifiCare should receive credit for these HCCs. Please note that the information contained in the
attached spreadsheet is privileged and confidential, and protected from disclosure under the Freedom ofInformation
Act, 5 U.S.C. § 522(c).
461 This estimated overpayment amount could fluctuate slightly due to rounding and other arithmetic anomalies
inherent in risk score calculations.
                                                           - 19 ­
                                       Protected From Disclosure Under Federal Law 

                             Exempt from the Freedom of Information Act. See 5 U.S.c. §552(b) 

                         Contains Confidential CommerciallFinancial and Other Protected Information 

                                                                                                           Page 20 of36




         Additionally, we not only reviewed the one best medical records that were submitted to the OlG
for each of the 50 members who had one or more HCCs invalidated, but we also evaluated each of those
member's records from the data collection period. We found that many of the members whose HCCs
were audited and invalidated were actually treated for the health conditions for which HCCs were
reported. Through our review, for example, we found nine diagnoses that were submitted to support a
risk score were supported in records other than the one best medical record, often among a collection of
several records, and perhaps from various providers. 471                 This highlights a common situation among
members with a chronic disease, for whom a multiple records should be considered in the aggregate to
verify the enrollee' s HCC. Had the OIG followed the guiding principle articulated in the 2006 Participant
Guide discussed above that granted MAOs greater flexibility in the submission of supporting medical
record documentation, and had the OIG considered supplemental information in accordance with this
guiding principle, the OIG would have determined that many of the invalidated HCCs were in fact
adequately documented and conditions for which PacifiCare members were actually treated.
         By way of example only, we have highlighted two members whose diagnoses have been
invalidated by the OIG but for whom we have determined the patient' s complete medical record supports
the HCC:
         (1) DIG Patient 36, Major Depressive Disorder, Single Episode, Moderate
                     PacifiCare submitted the medical record for an encounter dated May 16, 2006 to support
         the ICD-9 diagnosis code 296.22 (Major depressive disorder, singe episode, moderate).                   The
         provider documented the condition as "depression" with no further descriptive detail noted, and
         the OIG detennined that the submitted medical record did not support the diagnosis.
                     PacifiCare disagrees with the OIG's conclusion.                The patient is noted to have been
         widowed since February 2006. During the visit, the physician also notes that the patient is "not
             coping," is "tearful," and "not sleeping." During the May 16, 2006, visit, the patient was started
         on an antidepressant (Zoloft). In a later encounter on June 20, 2006, the patient is noted to be
         "still with depression," and her prescription for Zoloft was adjusted. Based on this information,
         the patient's clinical symptoms and treatment course are clinically consistent with Major
             Depression.
         (2) DIG Patient 64, Congestive Heart Failure


471 Please
         see TAB 4 in the spreadsheet attached as Appendix D with member-diagnosis level detail that explains
why we believe PacifiCare shou ld receive credit for these clinically justifiable HCCs. Please note that the
information contained in the attached spreadsheet is privileged and confidential, and protected from disclosure under
the Freedom ofInformation Act, S U.S .c. § 522(c).

                                                             - 20 ­
                                         Protected From Disclosure Under Federal Law 

                              Exempt from the Freedom ofInformation Act. See 5 U.S.c. §552(b) 

                           Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                      Page 21 of36




                 PacifiCare submitted the medical record for an encounter dated December 8, 2006 to
        support the diagnosis codes 425.4 (Other primary cardiomyopathies), 428.0 (Congestive heart
        failure, unspecified), and 404.13 (Hypertensive heart and kidney disease, Benign, with heart
        failure and chronic kidney disease). The OIG determined that the medical record did not support
        evidence of an evaluation, clinical findings and/or treatment related to the ICD-9 codes. The
        documentation does support 401.9 Hypertension, NOS which has no HCC.
                 Progress notes dated October 5th and December 8th of 2006 show that the physician
        recorded Congestive Heart Failure as one of the member's diagnoses. The member's medical
        history includes shortness of breath and examinations that included heart, lungs, and extremities,
        and the member is noted with edema at both visits. The member is also noted to be on a diuretic
        (lasix) during these visits, which is consistent with the diagnosis. The member is clinically being
        treated for Congestive Heart Failure on an ongoing basis with both the physical examinations and
        medications reflecting this.
 IV.    CONCLUSION

        For the reasons stated above, PacifiCare respectfully disagrees with the OIG's findings and
recommended extrapolation. Significantly, the OIG fails to account for the underlying complexities of
risk adjustment payments in its audit methodology, and as a result, grossly overestimates an alleged
overpayment amount. CMS's risk adjusted payments are not designed so that discrepancies found in
information submitted to support risk scores can be extrapolated to the contract level.               CMS has
recognized that there are complexities in validating risk adjusted payments and extrapolating
discrepancies to the contract level, but has not yet revealed or published its methodology for doing so.
Thus, the OIG 's recommendation to extrapolate any alleged overpayments is fundamentally flawed and
inappropriate.
        Moreover, the OIG failed to use statistically valid methodologies when conducting the Audit.
Not only is the sample of 100 beneficiaries utilized by the OIG not fully representative of PacificCare's
344,000 members - or even the 188,829 members who had a risk score based on at least one HCC, an
evaluation of the OIG's sample as compared to the sample frame used by OIG shows that the OIG's
random sample is not statistically valid when evaluated for RAF or number of HCCs. Such statistical
flaws inherent in the audit methodology suggest that the OIG ' s results are not reasonably reliable.
        We appreciate the opportunity to provide comments on the Draft Report, and welcome any
questions or comments you may have about our response.                 In light of the points detailed above, we
request that the OIG withhold its final report to allow CMS to address the issues raised in the Draft


                                                        - 21 ­
                                    Protected From Disclosure Under Federal Law 

                          Exempt from the Freedom ofInformation Act. See 5 U.S.c. §552(b) 

                      Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                    Page 22 of36




Report in the course of its developing RADV audit process. In the alternative, we ask that the OIG attach
these comments as an appendix to any final report issued.
        Please do not hesitate to e-mail me at tom s paul((i)uhc.com.


                                                               Sincerely,




                                                               Thomas S. Paul
                                                               Chief Executive Officer
                                                               UnitedHealthcare Medicare & Retirement



cc:     Antigone Potamianos




                                                      - 22 ­
                                   Protected From Disclosure Under Federal Law 

                         Exempt from the Freedom ofInfom1ation Act. See 5 U.S.C. §552(b) 

                     Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                      Page 23 of36




                                                    ApPENDIX A

                      Comparison of OIG Audit Sample Versus the Population

           A. Beneficiary Risk Scores - Sample vs. Population

        Each member's risk adjustment factor (RAF) is computed from the member's individual
Hierarchical Condition Categories (HCCs). The average RAF for all members in the OIG's sample is
1.64, whereas the average RAF for PacifiCare's population is 1.46. Using the sample mean, population
variance, and standard normal z statistic, the 90% confidence interval for the RAF sample mean (among
PacifiCare members in the OIG' s sample) is (l.48, 1.80) (see following table). As a result, the RAF
sample mean, according to commonly accepted statistical methods, is not statistically equal to the RAF
population mean (among PacifiCare members in the population), and the sample is not representative of
the population with respect to RAF.


Risk Adjustment Factor - Sample vs. Population

                                   90% confidence interval
                                    for popUlation average
                    Average          Lower        Upper
Sample               1.64             1.48         1.80
Population           l.46


        In addition, PacifiCare computed the likelihood of drawing a sample with a RAF average of 1.64
or greater from the OIG-defined popUlation using simulation methods. The results of the simulation
suggest that a sample with this mean would be drawn 3.6% ofthe time, or lout of28 times, which is not
representative of the population with respect to RAF based on commonly accepted statistical methods.

           B. Number of HCCs - Sample versus Population
        Consistent with the RAF in the OIG's sample population, the average number of HCCs per
member in the sample is greater than average number of HCCs per member in the population (see
following table).




                                                         - 23 ­
                                      Protected From Disclosure Under Federal Law 

                          Exempt from the Freedom oflnformation Act. See 5 U.S.C. §552(b) 

                       Contains Confidential Commercial/Financial and Other Protected Infom1ation 

                                                                                                    Page 24 of36




Average Number of HCCs - Sample vs. Population

   Sample             2.61 

  Population          2.33 




        Based on the average number of HCCs per member in the sample, the variance of number of
HCCs per member in the population, and the standard normal z-statistic, the 90% confidence interval of
the average number of HCCs in the population is (2.31 , 2.90). Although the 90% confidence interval
includes the population mean at the extreme low end of the interval (the probability of drawing a sample
with a mean of 2.61 or greater is 5.8%), the higher number of HCCs per member in the sample is
consistent with the high average RAF in the sample versus the population. This evidence suggests that
the sample is not representative ofthe population with respect to RAF and number ofHCCs.




                                                       - 24 ­
                                   Protected From Disclosure Under Federal Law 

                        Exempt from the Freedom ofInformation Act. See 5 U.S.C. §552(b) 

                     Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                                Page 25 of36




                                                      ApPENDI X      B
                                    Research on Errors in Diagnosis Coding
        A number of studies have evaluated coding accuracy, including coding ambiguities and errors.
One such study developed a framework for characterizing errors as shown in the chart below. 481



    Patient Trajectory                                                                                       Paper Tra.ll


    Patient arrives at                                                                                  Admttting diagnosis
          facility                                                                                           recorded


    Patienflclinic:ian                                                                                Physician records 'tests
        exchange                                                                                         and procedures
        Information                                                                                           ordered


                                                 Clinibian's tasI and procedure
   Pafientundergoes                                         Kf"IOwfedQG
    tests, .procedures,
     andconsl)Uations
                                                                                                       Te.standproC€iQlHe
   by other health 'care                                                                                 I'esultsadded to
                                                 l()::sttmj$p!ac~d   paperwork.or                              record
         providers.                        paperwork not shared acrossproviders
                                           Science for using1ests and pr(lcf.n1ures
                                                      to·ma.ke diagnosis



   Patient discharged
                                                                                                         Physician recordS
                                                                                                            diagnosis
                                              (HnSTances apfQS$ handwfiting or
                                                      computerized notes


                                                                                                        Record chEleke~ ~rld
                                                                                                         C-Ompletsd !:iy Healih
                                                                                                      !nformati;Orl .Management
                                                                                                             Department




481 Measuring  Diagnoses: ICD Code Accuracy, Health Service Research 2005 October; 40(5 Pt 2): 1620- 1639).
This article can be obtained at: http://www,l1cbi.nlrn.ni h.govfpmc/articlesfPMCI 361216/.
                                                          - 25 ­
                                       Protected From Disclosure Under Federal Law
                            Exempt from the Freedom ofInfomlation Act. See 5 U.S.c. §552(b)
                         Contains Confidential Commercial/Financial and Other Protected Information
                                                                                                     Page 26 of 36




        Research has also shown that errors in selecting the principal diagnosis may result from
misunderstanding or misinterpreting a coding guideline, including failing to read encoder messages,
inclusion and exclusion terms, and coding references during the coding process. 49 1
        Common examples of incorrect principal diagnosis selection include:
            • 	 Coding a condition when a complication code should have been selected instead.
            • 	 Coding a symptom or sign rather than the definitive diagnosis.
            • 	 Assuming a diagnosis without definitive documentation of a condition.
            • 	 Coding from a discharge summary alone.
            • 	 Incorrectly applying the coding guidelines for principal diagnosis, especially in a
                 situation where the coder selects the diagnoses when two or more diagnoses equally meet
                 the definition of principal diagnosis.
        Secondary diagnoses are frequently coded when they do not meet the criteria for reporting
secondary diagnoses. Some of the "traps" in coding secondary diagnoses are found in physician
documentation. Examples include use of the term "history of' for conditions that are currently under
treatment, as well as for those that have been resolved prior to admission and misuse of terms. For
example, "coagulopathy" is often documented when a patient on anticoagulant therapy has an expected
prolonged prothrombin time, rather than a true coagulopathy.            In addition, secondary diagnoses may be
missed by coders who code from a discharge summary alone without reviewing all documentation.




49/Ruth Orcutt, Common Coding Errors and How to Prevent Them, Clinical Insights, June 2009, www.clinical­
insights.com/resources-June09CodingErrors.html.
                                                       - 26 ­
                                    Protected From Disclosure Under Federal Law
                          Exempt from the Freedom ofInformation Act. See 5 U.S.c. §552(b)
                      Contains Confidential Commercial/Financial and Other Protected Information
                                                                                                        Page 27 of36




                                                        ApPENDIX C

                   Identification of Confidence Intervals When Forecast Errors are Included


       A. 	 The OIG Methodology for Computing Overpayment Confidence Interval
            The OIG computes the 90% confidence interval of the overpayments by applying the standard t­
statistic methodology (the relevant value for 90% confidence with a sample size of 100 is 1.66). From
Appendix C of the OIG Draft Report, overpayment amounts are shown for 50 of the 100 beneficiaries.
The remaining 50 beneficiaries have zero overpayment. Using this data, the sample overpayment mean is
$2,668.8 and variance is 22,180,609. The lower and upper bounds of the population mean of the
overpayment is computed as $2,668.8 ± 1.66*[22,180,609/(100-1)]",0.5, yielding a 90% confidence
interval for the population mean of [$1,886.98, $3,450.58]. The overpayment confidence interval for the
population is computed by multiplying the confidence interval for the population mean by 188,829 to
yield [($356,324,030, $651,571 ,113].
       B. 	 Overpayment Confidence Intervals When Corrected to Include the Forecast Errors from
            the Pope Model

            In computing this confidence interval, however, the OIG extrapolation incorrectly excludes the
model errors from the CMS-HCC risk adjustment model. SO l This model, as with all models that forecast
future health expenditures based on current and past health conditions, exhibits significant forecast error.
Although this error is small relative to total expenditures when the model is applied across large
popUlations, the error is significant when the model is applied to a small set of beneficiaries. Given the
high forecasting error associated with this model as acknowledged by its authors/I I the variation between
actual and forecasted expenditures for the OIG sample may differ significantly across random samples
drawn from the population.
            The overpayment determined in the sample can be defined as:


where CPclaims is the CMS payment based on claims data, and CPMedical Record is the CMS payment based on
medical records. However, this calculation ignores the error introduced by the audit itself, since the
predicted capitation amounts for individual records obtained from the Pope model are estimated with
significant uncertainty.
            The model error terms are shown as:

SOl   Pope et a!., (2004).
5 11 Pope  et a!., (2004), p. 131.
                                                            - 27­
                                         Protected From Disclosure Under Federal Law
                               Exempt from the Freedom oflnformation Act. See 5 U.S.c. §552(b)
                           Contains Confidential Commercial/Financial and Other Protected Information
                                                                                                                                      Page 28 of36




                         eMedic,,/ Recllrd = AEMedictli Recllrd - CPMedictl/ Record


                         ec/aims    = AEc/aims - CPc/ail1ls

where AEMedicll1 Record is the actual expenditures for an individual with HCCs found in medical records, and
AEc/aims is   the actual expenditures for an individual with HCCs found in claims data.
           The following representation correctly accounts for both sources of uncertainty :
                         D2 = (CPMedica/ Record - CPclaims)       + (eMedica/ Recllrd -   ec/{limJ.

           O 2 will have the same expected value as 0 1 , since the expected value of the overpayment remains
unchanged from the OIG analysis (the expected value of the error terms are zero). However, O2 has a
significantly higher variance. To estimate the variance associated with O2 , a proxy for the error terms
eMedictl/ Record   and   ecl(tims   is needed.
           A statistical bootstrap approach was employed to incorporate forecast errors into the confidence
interval of the overpayments. Proxies for the two error terms error terms                                  eMe(/iclll Record   and   ec/aims   were
developed from a sample of 2,675 California members with at least one HCe in 2007 and not in any
capitation arrangement with providers.                        Using the risk score for these members, and the medical
expenditures for 2007, an estimate of the "national predicted average annual cost" was computed. This
value was obtained where the risk factor multiplied by the national predicted average annual cost for all
beneficiaries was equivalent to total medical expenditures for all beneficiaries. The proxy error for each
observation was then generated by subtracting the actual 2007 medical expenditures from the forecasted
expenditures (risk score times national predicted average annual cost). This approach y ielded an estimate
of the variance of forecast errors of386,149,843. Recall that this reflects only members with at least one
HCC.
           The bootstrap approach consisted of drawing 10,000 samples of 100 observations each. Each of
the observations included a random draw of (CPc/aiI111                     - CPMedica/ Record)        with replacement from the sample
of 100 overpayments/ underpayments (including 50 zeros), and an independent separate random draw
(with replacement) of each of eMedic{l/ Record and               ec/Ilims from   the 2,675 proxy errors. In each observation, if a
o was drawn for            (CPc/oi"'s     - CPMedica/ Record),   (i.e. one of the 50 observations with no adjustments), then
eMedictt/ Record    and    ec/(tims   were also set to zero (no forecast error if no overpayment or underpayment
amount). For each observation, O2 was then computed.
           By repeating the above steps, 10,000 samples of 100 observations each were obtained. The next
step included computing the average O 2 for each of the 10,000 samples. By ordering the resulting 10,000
average values of O 2 , the confidence interval was determined using the bootstrap percentiles, i.e. the 500th
(5%) and 9,500 01 (95%) value of average O2 •

                                                                     - 28 ­
                                              Protected From Disclosure Under Federal Law 

                                    Exempt from the Freedom ofInformation Act. See 5 U.S .c. §552(b) 

                                Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                                    Page 29 of36




          When assuming the two error terms are independent (i.e., the covariance term is zero), the
resulting bootstrap-obtained confidence interval was ($-1 20,350,276, $1,136,807,540) versus the OIG
reported confidence interval of ($356,324,030, $651,571,113). This confidence interval, which includes
zero, suggests that the population variance is very high and the population overpayment is not statistically
different from zero.
          Alternative distributions of          eMedical Record   and   eclalll1S   could be considered, including cases where
eMedical Record   and   eclaims   are correlated. Significant empirical work including obtaining variances of model
parameters may be required to obtain an accurate confidence interval. In the end, however, including the
model error will result in a wider confidence interval.




                                                                  - 29­
                                            Protected From Disclosure Under Federal Law 

                                  Exempt from the Freedom ofInformation Act. See 5 U.S.c. §552(b) 

                              Contains Confidential Commercial/Financial and Other Protected Information 

                                                    Appendix D, TAB 1 

                                       HCCs from OIG's 90 errors that were validated 

                                             PacifiCare of California CY 2007 





1                                                                     7/25/06, the patient presented for a new patient check-up. RRR with occ
                                           PVC was documented in the exam notes in the cardiac section. In the AlP the physician states hx of
                                           MI (412) . The original documentation was not signed by the physician; however, an attetation
                                           dated 3/19/09 was provided for this DOS with the physician's signature and credentials.



                                   Y       Documentation to support aortic atherosclerosis (440.0) is located in the investigations section of the
                                           physician documentation for DOS 9/12/06. Documentation of the patient's prior echo results from
                                           September 2005 were documented as AS of 41 mm/Hg. This is significant as the patient is being
                                           assessed for cardiac clearance for surgery. Additionally, in the appeal documentation the dictated
                                           pre-operative HIP states 316 systolic ejection murmur auscultated. The written HIP states CV - AS
                                           IIINI. Based on the physician documentation and considering that the patient needed cardiac
                                           clearance for surgery, 440.0 is a significant secondary diagnosis.

                                   Y       HCC 105 was validated with an alternate ICD-9-CM in the HCC: 440.0. In the History and Physical
                                           provided with the appeal documentation, DOS 12/16/06 - 12/20106, the physician noted a 216 systolic
                                           murmur at the left sternal border. The patient had an emergent cath, had stents placed , and was
                                           diagnosed with AMI. Additionally, in the discharge summary it is documented that the
                                           echocardiogram results revealed aortic sclerosis (440.0) without significant gradient. Therefore,
                                               .0 is a significant secondary diagnosis.

    32 1579.1   1579.0             Y      The physician documents the chronic condition Sprue (579.1) as a diagnosis on DOS 8/25/06. The
                                          physician's signature and credentials were not on the medical record documentation; however, the
                                          physician provided his signature and credentials on 1/22/09.


    80 1416.8 1416.0               Y      DOS 6/30106 supports pulmonary hypertension (416.8) with increase in edema noted ; however, this
                                          documentation is not signed by the physician. The appeal documentation, DOS 3/24/06 , also
                                          supports pulmonary hypertension (416.8). The note states that the patient was on a calcium channel
                                          blocker without any symptomatic improvement of his dyspnea; however, the note is not authenticaterll
                                          by the physician. Signatures and credentials were obtained for the two physicians who evaluated th
                                          beneficiary on the dates of service mentioned above; therefore, the HCC is validated.
                                                                                                                                                     '1:1
                                                                                                                                                     ~
                                                                                                                                                     w
                                                                                                                                                      o
                                                                                                                                                     o....,
                                                                                                                                                     w
                                                                                                                                                     0\
                                       Protected From Disclosure Under Federal Law
                            Exempt from the Freedom of Information Act. See 5 U.S.C. §552(b) 

                         Contains Confidential Commercial/Financial and Other Protected Information                               Page 1 of 7 

                                                Appendix 0 , TAB 1 

                                   HCCs from OIG's 90 errors that were validated 

                                         PacifiCare of California CY 2007 





                                         PO is documented by the physician on 8/25/06, and it is noted that the patient is off oxygen at
                                      night. Decreased breath sounds were noted on exam. Therefore, would offer COPD as a diagnosis;
                                      however, the documentation is not signed by the physician. A different physician's documentation
                                              and 5/26/06 also support COPD; however, these notes are not authenticated by the
                                      physician. Physician's Impression on 5/26/06 supports moderate COPD with severe dyspnea and
                                      02 dependence secondary to COPD. Signatures and credentials were obtained for the two
                                      physicians who evaluated this beneficiary on all dates of service mentioned above; therefore, the
                                      HCC is validated.


131 1585.9                     Y      Documentation of chronic renal insufficiency (CRI) noted in DOS 12/5/06 under assessment.
                                      Physician states that he discussed the situation of CRI with the patient. The medical record
                                      documentation is not signed by the physician; however, an attestation dated 3/13/09 was provided
                                          the physician's signature and credentials for DOS 12/5/06.

19 1250.00 1250.02             Y       ICD-9-CM code 250.00 is supported in DOS 8/29/06 - 9/6/06. The 8/31 Progress Note states
                                      relevated blood glucose (255), probably stress related. An Insulin sliding scale was ordered. The
                                       Progress Note on 9/1 states hyperglycemia without known diabetes probably due to stress of
                                             ry , better control on Insulin SS, start Lantus. The 9/5 Progress Note states hyperglycemia
                                       possibly diabetes, BS reasonably controlled , HgA 1C 6.4. Orders were for dietician to advise
                                       on diabetic diet. The patient was discharged on 1800 cal ADA diet. Per IP guidelines, may code
                                       possible diagnoses as if they exist and would offer diabetes (250.00) as a valid diagnosis.




74 1780.39                     Y      Per DOS 1/27/06 (submitted with HCC 52 Appeal), under chief complaint/concern is noted the need
                                      for Dilantin as the patient was placed on Dilantin one year ago for seizures (780.39) sIp intracranial
                                      bleed . The physician made a decision to discontinue the Dilantin as the patient was without bleed
                                      one year. Based on the documentation, would offer 780.39 as a valid diagnosis that was monitored
                                      and treated .


                                                                                                                                               ."
                                                                                                                                               ~
                                                                                                                                               (1)
                                                                                                                                               w

                                                                                                                                               g,
                                                                                                                                               w
                                                                                                                                               0\
                                   Protected From Disclosure Under Federal Law
                        Exempt from the Freedom of Information Act. See 5 U.S.C. §552(b)
                     Contains Confidential Commercial/Financial and Other Protected Information                               Page 2 of 7
                                                      Appendix 0 , TAB 1 

                                         HCCs from OIG's 90 errors that were validated 

                                               PacifiC are of California CY 2007 





10                                                                            the patient complained of abdominal pain, NN , and burning urination
                                                               A CT of the abdomen read by the radiologist and reviewed by the ER physician
                                             showed a mild ileus (560.1) and no other acute pathology. The treatment of mild ileus is often
                                             palliative and the patient received IV fluids , IV MS04, IV Ativan and IV Reglan. Ileus is a valid
                                             secondary condition diagnosed by the physician and therefore 560.1 should be coded.


11                                   Y      Psychotherapy visit (2/21/06) supports that the patient was worried about her COPD. Treatment was
                                            aimed towards her expressed feelings of anxiety of which COPD was identified as a stressor.
                                            Therefore, would offer COPD (496) as a secondary diagnosis as it was related to the presenting
                                            l':lImntnml': and treated.
12                       451.83      Y      The entire inpatient hospital record for this beneficiary was reviewed for the stay from 12/2
                                            115/07. Per documentation on 12131/2006, the physician states questionable right arm thrombus or
                                            thromboembolism. Patient was on Heparin IV. Ultrasound of right arm supports thrombus of right
                                            brachial vein (451 .83). The Discharge Summary also supports the presence of thrombus; therefore,
                                            451.83 is a significant diagnosis and meets IP coding guidelines.



13   131 1585.9 1585.6               Y      Per documentation in DOS 6/28/06, the patient has a past medical history of chronic renal
                                            insufficiency (585.9). Labs (BUN and Creatinine) from 6/6/06 were noted. Therefore, would offer
                                            585.9, as this diagnosis is being monitored and evaluated based on labs performed and reviewed.
                                            The Progress Note was not signed by the physician; however, an attest by the providing physician
                                               s signed with credentials and dated 2/11/09.




                                                                                                                                                     ."
                                                                                                                                                     ~
                                                                                                                                                     (1)
                                                                                                                                                     w
                                                                                                                                                     N
                                                                                                                                                     g,
                                                                                                                                                     w
                                                                                                                                                     0\
                                         Protected From Disclosure Under Federal Law
                              Exempt from the Freedom of Information Act. See 5 U.S.C. §552(b) 

                           Contains Confidential CommerciallFinancial and Other Protected Information                              Page 3 of 7 

                                  Appendix 0 , TAB 2 

                         Incidental HCCs validated in sample 

                           PacifiCare of California CY 2007 





                Noted documentation of Chronic Kidney Disease (CKD) secondary to diabetes (250.40, 585.9) in the
                Discharge Summary dated 10/20106 as well as OM Type 2 with peripheral neuropathy (250.60, 357.2).
                Patient to resume diabetic diet on discharge and resume meds including Avandia and Glipizide. Would
                offer as significant manifestation of diabetes as coding guidelines dictate that the manifestation of the OM
                      lication should be coded if known .
80    428.0     CHF is listed under the past medical history of note on DOS 6/20106. A medication documented for this
                84 year old patient is Coumadin. CHF (428.0) is a chronic condition and may be linked to the control of
                the Atrial Fib which is being treated with Coumadin. Therefore, CHF could be offered as a secondary

105   440.0     Noted documentation of AS (Aortic Sclerosis) 440.0 in problem list located in DOS 7/12/06. DOS
                12/30106 states aortic sclerosis under problem list with systolic murmur noted on exam. AS is a chronic
                condition which needs monitoring; therefore, this should be offered as a secondary diagnosis.

74    780.39    DOS 2/15/06 documentation supports that the patient takes Dilantin every am and under the problem list
                is noted that the patient is with SZ (seizures, ICD-9-CM code 780.39). Therefore, 780.39 is supported as
                a current diaqnosis.
176   V44.3     Noted documentation in the HIP (DOS 1/27/06) that the patient has a history of colon cancer with
                subsequent colectomy. Under exam of the abdomen, it is noted that the patient had a colostomy (V44.3)
                functioning quite well. Therefore, V44.3 should be coded as a chronic condition and could be significant
                to the current care of the patient who is suspected of poor po intake.
105   443.81    DOS 12/4/06 documentation supports diabetes with peripheral vascular disease (250.70) (443.81). The
                reason for the patient's visit was to re-check diabetes; her glucose value was documented as 235. Per
                coding guidelines, when coding diabetes you must code any manifestations present related to diabetes.
                    the peripheral vascular disease is a manifestation, it should be added as a secondary code.

92    427.31    DOS 7/6/06 documentation supports that the patient has a history of A-Fib and is maintaining a regular
                rhythm with Sotalol. An EKG was performed and demonstrated a regular sinus rhythm. Therefore, 427.31
                 hould be offered as siqnificant second
108    496      Chronic Obstructive Pulmonary Disease (496) is documented in the listing of the patient's chronic
                conditions for DOS 11/9/06 and 11/27/06. This chronic condition should be coded as a secondary

131   585.2     Noted documentation in                                          2) and Creatinine of 1.3 with a note to
                                                                                                                               '1:1
                monitor BUN/Cr. Th                                                 nosis.
                                                                                                                               ~
                                                                                                                               w
                                                                                                                               w
                                                                                                                               o....,
                                                                                                                               w
                                                                                                                               0\
                    Protected From Disclosure Under Federal Law
         Exempt from the Freedom of Information Act. See 5 U.S.C. §552(b)
      Contains Confidential Commercial/Financial and Other Protected Information                                Page 4 of 7
                                 Appendix 0, TAB 2 

                        Incidental HCCs validated in sample 

                          PacifiCare of California CY 2007 





10              Noted documentation of COPD in past medical history in anesthesia notes (DOS 7/25/06) and again in
               ROS. Due to the fact that this diagnosis is integral to the assessment for administration of anesthesia, it
               should be coded as it is a sianificant second




                                                                                                                             >-c:I
                                                                                                                             ~
                                                                                                                             w
                                                                                                                             .j:;o.
                                                                                                                             o....,
                                                                                                                             w
                                                                                                                             0\
                   Protected From Disclosure Under Federal Law
        Exempt from the Freedom of Information Act. See 5 U.S.C. §552(b)
     Contains Confidential Commercial/Financial and Other Protected Information                                Page 50f7
                                      Appendix D, TAB 3 

                     HCCs from OIG's 90 errors supported by Clinical Review 

                               PacifiCare of California CY 2007 





                      Type 2 DM and CKD are the first two diagnoses listed under the physician's assessment for DOS
                      10/30/06. The patient's medications and lab values were evaluated (Creatinine 6.1). Unable to link
                      these diagnoses based on documentation in the record. Clarification of the etiology of CKD obtai
                      on 3/4/09 states patient has Type 2 DM as etiology of CKD with signature of the providing physician .
                      Based on the clarification , 250.40 is a valid diagnosis.

83 1412               Per DOS 8/18/06 patient has CAD and is on ASA. CAD sIp stent is documented. The clarification
                      note requested clarification of cardiac conditions , and the physician stated old MI (412) prior to PTCA
                      in 2000 and 2003. Based on the clarification, old MI should be coded as a chronic condition pertin
                      to present pre-op visit.

                      Documentation in DOS 5/16/06 states patient with depression (311) as recently widowed and having
                      a hard time coping. She was started on Zoloft. Clarifying letter as to type of depression dated 2/5/09
                      for DOS 5/16/06 states major depression. Therefore, based on the physician's clarification, would
                      offer alternate ICD-9-CM code 296.20 which is within HCC 55 to specify the type of depression as
                                      ion.
10 1189.0             DOS 11/14/06 lists the diagnosis codes 189.0 (Malignant neoplasm of kidney and other and
                      unspecified urinary organs, Kidney, except pelvis). The provider noted "Ieft renal cancer - urology
                      follow-up." Full medical record reflects that the patient had undergone a left nephrectomy for renal
                      cell carcinoma in November of 2004. Per current medical literature, the five year survival rate for
                      Stage 3 renal cell carcinoma is 20%. Current standards of practice recommend CT scans 3-4 times
                      a year during this time frame due to the high likelihood of recurrence. Based on clinical judgment,
                      this patient would not be presumed cured of her renal cell carcinoma.


                      Per review of the medical records, the primary care physician notes Congestive Heart Failure as one
                      of the patient's diagnoses. The Progress Notes dated 10/5/06 and 12/8/06 note histories with
                      shortness of breath and examinations that included heart, lungs, and extremities. The patient is
                      noted with edema at both visits and is noted to be on a diuretic (Lasix). Both the physical
                      examinations and medications reflect that the patient is clinically being treated for Congestive Heart
                      Failure (428.0) on an ongoing basis.

                                                                                                                                    '1:1
                                                                                                                                    ~
                                                                                                                                    w
                                                                                                                                    v,
                                                                                                                                    o
                                                                                                                                    .....,
                                                                                                                                    w
                                                                                                                                    0\
                          Protected From Disclosure Under Federal Law
               Exempt from the Freedom of Information Act. See 5 U.S.C. §552(b)
            Contains Confidential Commercial/Financial and Other Protected Information                                Page 6 of 7
                                       Appendix D, TAB 3 

                      HCCs from OIG's 90 errors supported by Clinical Review 

                                PacifiCare of California CY 2007 





                       DOS 12/30106 lists the diagnosis of depression (311) and supports that the patient was taking Paxil.
                       Clarification of type of depression by the physician noted on 2/23109 states Major Depression
                       (296.20). Therefore, would offer the specified type of depression based on the physician's
                       clarification.
15 1250.40             Per documentation, the patient has a diagnosis of DM Type 2. A urine screen for microalbumin was
                       ordered by the physician on 12/14/04, 11/8105, and 6126/06 consistent with recommended monitoring
                          kidney disease in patients with DM. On all of these dates provided, the patient is noted to have
                       higher than normal levels of microalbumin in the urine consistent with DM with renal manifestations.
                       On the 12/4/04 lab sheet, notations indicate consideration was given for an ACEI (Angiotensin
                       Converting Enzyme Inhibitor) to be started which is the recommended treatment for DM with renal
                       manifestations (microalbuminuria). However, an ACEI was not started due to concerns about a high
                       potassium level in this patient. Based on the documentation, there is good clinical evidence of DM
                            renal manifestations.

16 1250.60             Per documentation in DOS 8/14/06, the patient has DM. It is noted in the exam that the patient is
                       unable to walk without walker and had decreased sensation bilaterally. A clarification was submitted
                         the physician to determine if the patient had any complications of DM. On the clarification signed
                       by the physician on 2/10/09, the physician documents "Diabetes with peripheral neuropathy".
                        h",r",fnr", the diagnosis 250.60 is supported by the clarification.



55 1296.30                     documentation in DOS 6/8/06, the patient has a history of depression for which he uses Prozac.
                      I/"\::>::>essment states depression under control. The clarification note signed by the physician on
                        3/4/09, the physician states "Major depression recurrent controlled on meds". Therefore, would offer
                              specified type of depression based on the physician's clarification.




                                                                                                                                   '1:1
                                                                                                                                   ~
                                                                                                                                   w
                                                                                                                                   0\
                                                                                                                                   o
                                                                                                                                   .....,
                                                                                                                                   w
                                                                                                                                   0\
                           Protected From Disclosure Under Federal Law
                Exempt from the Freedom of Information Act. See 5 U.S.C. §552(b)
             Contains Confidential Commercial/Financial and Other Protected Information                              Page 7 of 7
